Audit Report




OIG-13-020
Audit of the Department of the Treasury Forfeiture Fund’s
Fiscal Years 2012 and 2011 Financial Statements


December 7, 2012




Office of
Inspector General
Department of the Treasury
 
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL




                                               December 7, 2012


            MEMORANDUM FOR ERIC HAMPL, DIRECTOR
                           TREASURY FORFEITURE FUND

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Department of the Treasury Forfeiture Fund’s
                                     Fiscal Years 2012 and 2011 Financial Statements

            I am pleased to transmit the attached audited Department of the Treasury
            Forfeiture Fund (TFF) financial statements for Fiscal Years 2012 and 2011. Under
            a contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of TFF as of September 30, 2012 and 2011 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                    •   Independent Auditor’s Report on Financial Statements;
                    •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                        and
                    •   Independent Auditor’s Report on Compliance with Laws and Regulations.

            In its audit, GKA found:

                    •   the financial statements were fairly presented, in all material respects, in
                        conformity with accounting principles generally accepted in the United
                        States of America;
                    •   no deficiencies in internal control over financial reporting that are
                        considered material weaknesses; and
                    •   no instances of reportable noncompliance with laws and regulations
                        tested.
Page 2


In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. GKA is
responsible for the attached auditor’s reports dated October 31, 2012 and the
conclusions expressed in the reports. However, our review disclosed no instances
where GKA did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits at
(202) 927-5591.

Attachment
                                                                    1015 18th Street, NW
Certified Public Accountants                                            Suite 200
& Consultants                                                     Washington, DC 20036
                                                                    Tel: 202-857-1777
                                                                    Fax: 202-857-1778
                                                                    www.gkacpa.com




      Treasury Forfeiture Fund
        ACCOUNTABILITY REPORT
            Fiscal Year 2012
            DEPARTMENT OF THE TREASURY
                 WASHINGTON, D.C.




                               Member of the American Institute of Certified Public Accountants
 
                                       Message from the Director

I am pleased to present the fiscal year (FY) 2012 Accountability Report for the Treasury Forfeiture Fund (the
Fund). While highlighting the Fund’s financial and operational performance over the past year, this report also
focuses on some of the significant investigative achievements of our participating law enforcement agencies
this year. FY 2012 was another highly successful revenue year for the law enforcement bureaus participating
in the Treasury Forfeiture Fund, with earned revenue and recoveries of $516.6 million from all sources, as
compared to $868.1 million in FY 2011.

The continued high-impact performance of the Fund reflects the ongoing hard work of our law enforcement
bureaus as well as Fund management’s emphasis on major case initiatives, asset forfeiture program training
and a focused approach regarding our performance measure which gauges revenue from high-impact cases.
The mission of the Fund is to affirmatively influence the consistent and strategic use of asset forfeiture by our
law enforcement bureaus to disrupt and dismantle criminal enterprise. It is our view that the greatest damage
to criminal enterprise can be achieved through large forfeitures; hence we have set a target level of 80 percent
of our forfeitures to be high-impact, i.e., cash forfeitures equal to or greater than $100,000. This target level is
up from 75 percent set for FY 2010 and prior years. For FY 2012, our member bureaus fell just short of the
new target with a performance level of 76.38 percent high-impact forfeitures as compared to 91.44 percent in
FY 2011.

Contributing to this year’s revenue levels were two exceptionally large equitable sharing deposits received
from the Department of Justice (DOJ) forfeiture fund in recognition of the role of Treasury member bureaus in
those forfeitures. Shares received in FY 2012 included just under $60 million from the Google Inc. forfeiture
to DOJ. In total, Google agreed to forfeit $500 million in ill-gotten gains related to taking advertisements
from online Canadian pharmacies; i.e., the shipment of prescription drugs from pharmacies outside the United
States to customers in the United States typically violates the Federal Food, Drug and Cosmetic Act and in the
case of controlled prescription drugs, the Controlled Substances Act.

Regarding another large equitable share received from the DOJ forfeiture fund in FY 2012, Wachovia Bank,
N.A. entered into a Deferred Prosecution Agreement (DPA) with the federal government in which the bank
accepted responsibility for failing to maintain an effective anti-money laundering program. Wachovia failed
to block Mexican currency exchange houses from laundering billions of dollars, including drug-trafficking
proceeds, through the bank. Wachovia acknowledged that more than $110 million was involved in the
transaction violations and were, therefore, subject to forfeiture to the United States. The Treasury Forfeiture
Fund’s equitable share from the DOJ forfeiture fund in this case was $34.6 million.

During FY 2012, the Treasury Executive Office for Asset Forfeiture (TEOAF), the management component of
the Treasury Forfeiture Fund, suspended training seminars. TEOAF hopes to return to these valuable and
productive training segments as soon as possible.

The Treasury Forfeiture Fund continues in its capacity as a successful multi-Departmental Fund representing
the interests of law enforcement components of the Departments of Treasury and Homeland Security.
Member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS-CI), the U.S. Secret
Service, Immigration and Customs Enforcement (ICE), and Customs and Border Protection (CBP). The U.S.
Coast Guard continues its close working relationship with the legacy Customs bureaus. We look forward to
another successful year in FY 2013.

                                                           Eric E. Hampl, Director
                                                           Executive Office for Asset Forfeiture
                                                           U.S. Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
                                                          Table of Contents


Section I: Overview

    Profile of the Treasury Forfeiture Fund............................................................................ 1
    Strategic Mission and Vision ........................................................................................... 1
    Case Highlights ............................................................................................................... 2
    Program and Fund Highlights ........................................................................................ 16
    Program Performance .................................................................................................... 17
    Financial Statement Highlights ...................................................................................... 19

Section II: Independent Auditor’s Reports

    Independent Auditor’s Report on Financial Statements .................................................. 23
    Independent Auditor’s Report on Internal Control over Financial Reporting .................. 25
    Independent Auditor’s Report on Compliance with Laws and Regulations .................... 27

Section III: Financial Statements and Notes

    Financial Statements:
       Balance Sheets......................................................................................................... 29
       Statements of Net Cost ............................................................................................ 30
       Statements of Changes in Net Position..................................................................... 31
       Statements of Budgetary Resources ......................................................................... 32
       Notes to Financial Statements .................................................................................. 33

Section IV:

Required Supplemental Information .................................................................................... 50

Section V:

Other Accompanying Information ....................................................................................... 52
                                Treasury Forfeiture Fund
                              FY 2012 Management Overview


Profile of the Treasury Forfeiture Fund

The Treasury Forfeiture Fund (the Fund) is the receipt account for the deposit of non-tax forfeitures
made pursuant to laws enforced or administered by law enforcement bureaus that participate in the
Treasury Forfeiture Fund. The Fund was established in October of 1992 as the successor to the
Forfeiture Fund of the United States Customs Service. The Fund is a “special receipt account.” This
means the Fund can provide money to other federal entities toward the accomplishment of a specific
objective for which the recipient bureaus are authorized to spend money and toward other authorized
expenses. The use of Fund resources is governed by law, policy and precedent as interpreted and
implemented by the Department of the Treasury which manages the Fund. A key objective for
management is the long-term viability of the Fund to ensure that there are ongoing resources to
support member-bureau seizure and forfeiture activities well into the future. The emphasis of Fund
management is on high impact cases that can do the most damage to criminal infrastructure.

The Treasury Forfeiture Fund continues in its capacity as a multi-Departmental Fund, representing
the interests of law enforcement components of the Departments of Treasury and Homeland
Security. Our member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS-
CI), the U.S. Secret Service, Immigration and Customs Enforcement (ICE), and Customs and Border
Protection (CBP). The U.S. Coast Guard continues its close working relationship with the legacy
Customs bureaus and functions in a member-bureau capacity.

The Executive Office for Asset Forfeiture (EOAF), which provides management oversight of the
Fund, falls under the auspices of the Under Secretary for Terrorism and Financial Intelligence.
EOAF’s organizational structure includes the Fund Director, Legal Counsel, Assistant Director for
Financial Management and Assistant Director for Policy. Functional responsibilities are delegated to
various team leaders. EOAF is located in Washington, D.C., and currently has 25 authorized full
time equivalent positions.

Strategic Mission

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus that participate in the Treasury Forfeiture Fund to
disrupt and dismantle criminal enterprises.

Strategic Vision

Fund management works to focus the asset forfeiture program on strategic cases and investigations
that result in high-impact forfeitures. Management believes this approach incurs the greatest damage
to criminal organizations while accomplishing the ultimate objective – to disrupt and dismantle
criminal enterprises.



                                       SECTION I - OVERVIEW                                         1
Case Highlights

The following case highlights are intended to give the reader an idea of the types of investigative
cases worked by the Fund’s law enforcement bureaus during FY 2012 that resulted in the seizure and
forfeiture of assets. Such cases as those profiled below are consistent with the Strategic Mission and
Vision of the Treasury Forfeiture Program, which is to use high-impact asset forfeiture in
investigative cases to disrupt and dismantle criminal enterprises.


I nternal Revenue Service, Crim inal I nvestigation (I RS-CI )
Departm ent of the Treasury

$16 Million forfeited In Rem from indicted Swiss Bank’s U.S. Account
Information included in the following forfeiture article is attributed to: U.S. Department of Justice Press Release dated
February 2, 2012, entitled: “Swiss Bank Indicted on U.S. Tax Charges,” and U.S. Department of Justice Press Release
dated April 24, 2012, entitled: “Manhattan U.S. Attorney Forfeits Over $16 Million Seized from Indicted Swiss Bank’s
U.S. Account”

In February 2012, Wegelin & Co. (Wegelin), a Swiss bank, was indicted for conspiring with U.S.
taxpayers and others to hide more than $1.2 billion in secret accounts, and the income these accounts
generated, from the Internal Revenue Service (IRS). At the same time, the U.S. government seized
more than $16 million from Wegelin’s correspondent bank account in the United States, in
accordance with a civil forfeiture in rem forfeiture complaint and seizure warrant. In April 2012, a
U.S. District Court Judge entered a default judgment and final order of forfeiture of these funds.

According to the Indictment and the in rem Forfeiture Complaint, Wegelin, Switzerland’s oldest
bank, founded in 1741, provided private banking, asset management and other services to clients
around the world, including U.S. taxpayers living in the Southern District of New York. Wegelin had
no branches outside Switzerland, but it directly accessed the U.S. banking system through a
correspondent bank account that it held at UBS AG in Stamford, Connecticut.

From 2002 through 2011, Wegelin conspired with various U.S. taxpayers and others to hide the
existence of bank accounts held at Wegelin and the income generated in those secret accounts from
the IRS. Among other things, in 2008 and 2009, Wegelin opened and serviced dozens of undeclared
accounts for U.S. taxpayers in an effort to capture clients lost by UBS in the wake of widespread
news reports that the IRS was investigating UBS for helping U.S. taxpayers evade taxes and hide
assets in Swiss bank accounts. By mid-2008, UBS had stopped servicing undeclared accounts for
U.S. taxpayers.

In the wake of the IRS investigation of UBS, members of Wegelin’s senior management
affirmatively decided to capture the illegal business that UBS exited. To capitalize on the business
opportunity this presented and to increase the assets under management, along with the fees earned
from managing those assets, individuals acting on behalf of Wegelin told various U.S. taxpayer-
clients that their undeclared accounts would not be disclosed to U.S. authorities because the bank had
a long tradition of secrecy.




2             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
U.S. taxpayers are required to report the existence of any foreign bank account on their federal
income tax returns if it holds more than $10,000 at any time during a given year, as well as any
income it earns. By 2010, the collective maximum value of the assets in undeclared accounts
beneficially owned by U.S. taxpayer-clients of Wegelin was more than $1.2 billion, with many
accounts holding more than $10,000 in any one year. As the result of this case, the sum of $16.3
million was subsequently forfeited and deposited into the Treasury Forfeiture Fund (the Fund) in
June 2012.


                                Significant Equitable Sharing Revenue Cases 1

Wachovia Bank, N.A., forfeits $110 Million of which $35 Million is equitably shared with the
Treasury Forfeiture Fund
Information included in the following forfeiture article is attributed to: United States District Court, Southern District of
Florida, Deferred Prosecution Agreement, Case No. 10-20165-CR-LENARD, dated March 16, 2010; Article by Curt
Anderson, entitled: “160M Wachovia penalty a record,” published in the Atlanta Business News, on March 17, 2010; and
the Article by Jay Weaver, entitled: “Bank pays for lapse in laundering,” published in The Miami Herald, on March 18,
2010.

In March 2010, Wachovia Bank, N.A. (“Wachovia”) entered into a Deferred Prosecution Agreement
(DPA) in which the bank accepted responsibility for failing to maintain an effective anti-money
laundering program, in violation of Title 31 U.S.C. §5318(h)(1) and §5322(a). Wachovia
acknowledged that more than $110 million was involved in transactions in accounts in violation of 18
U.S.C. §1956 and §1957, and, therefore, the funds were subject to forfeiture to the United States
pursuant to 18 U.S.C. §981 and §982. In addition, Wachovia agreed to pay a fine of $50 million for
the violations.

At issue, Wachovia failed to block Mexican currency exchange houses from laundering billions of
dollars, including drug-trafficking proceeds, through the bank. Authorities stopped short of labeling
Wachovia as a knowing partner with drug cartels, saying only that the bank lacked sufficient anti-
money laundering programs to detect the flood of tainted currency into its financial network.

The agreement is the largest penalty paid by a U.S. financial institution for violating the Bank
Secrecy Act. The Act was passed by Congress in 1970 and requires banks to set up aggressive anti-
money laundering safeguards, including reporting suspicious transactions to the government.
Authorities said that Wachovia’s Miami offices and other branches “willfully failed” to monitor
potential money laundering activity exceeding $420 billion by the exchange houses in Mexico,
including at least $110 million authorities were able to positively identify as cocaine proceeds.

The Treasury Forfeiture Fund’s equitable share from the DOJ forfeiture fund was $34.6 million,
deposited into the Fund in April 2012.




1
  Pursuant to 31 U.S.C. 9703(d)(2)(C), the Treasury Forfeiture Fund is authorized to deposit into the Fund all amounts
representing the equitable share of a Department of the Treasury law enforcement organization or the United States Coast
Guard from the forfeiture of property under any Federal, State, local or foreign law.
                                               SECTION I - OVERVIEW                                                    3
                    Multi-Bureau Case IRS-CI, ICE and U.S. Secret Service
         Also an Equitable Sharing Case from the Department of Justice Forfeiture Fund

Google Pays $500 Million Forfeiture Penalty to U.S. Government
Information included in the following forfeiture article is attributed to: Fox Business News Article, dated August 24,
2011, entitled: “Google to Pay $500M Forfeiture Penalty to Feds;”and the Non-Prosecution Agreement with Google Inc.,
entered into by the United States Attorney’s Office for the District of Rhode Island in August 2011.

In one of the largest forfeiture penalties ever, Google Inc. agreed to forfeit $500 million in ill-gotten
gains garnered from taking advertisements from online Canadian pharmacies. The sum represents
the gross revenue Google received from its AdWords program, along with that made by Canadian
pharmacies via sales to U.S. consumers.

The U.S. Government charged that Google was aware as early as 2003 that it is generally illegal for
pharmacies to ship controlled and non-controlled prescription drugs into the United States from
Canada. Google was aware that importation of prescription drugs to consumers in the United States
is almost always unlawful because the U.S. Food and Drug Administration (FDA) cannot ensure the
safety and effectiveness of foreign prescription drugs that are not FDA-approved and because the
drugs may not meet FDA’s labeling requirements, may not have been manufactured, stored and
distributed under proper conditions, and may not have been dispensed pursuant to a valid
prescription.

Treasury Forfeiture Fund member bureaus IRS CI, Immigration and Customs Enforcement (ICE) and
the U.S. Secret Service participated in the investigation leading to forfeiture and received a combined
total of nearly $60 million in equitable shares from the DOJ forfeiture fund reflecting their efforts. In
March 2012, equitable shares totaling $59,974,671 were deposited into the Fund.


I m m igration and Custom s Enforcem ent (I CE)
Departm ent of Homeland Security

Joint Cocaine and Bulk Cash Smuggling Investigation nets $917,900 in U.S. Currency
Information included in the following forfeiture article is attributed to: Case information from the Treasury Executive
Office for Asset Forfeiture Liaison for Immigration and Customs Enforcement (ICE).

In mid-November 2011, ICE agents seized $917,900 in U.S. Currency pursuant to a joint cocaine and
bulk cash smuggling investigation. The currency was located in the cargo hold of a tractor trailer
listed as belonging to Ochoa Trucking in Southern California. The driver was interviewed and
subsequently released. The seizure occurred on I-70 in Howard County, Maryland. The seized funds
were subsequently forfeited and deposited into the Fund in June 2012.


Houston-based Champion Window and Advanced Containment Systems, Inc. enter Non-
Prosecution Agreement regarding Illegal Employment Practices, each forfeits $2 Million
Information included in the following forfeiture article is attributed to: Immigration and Customs Enforcement (ICE)
News Release dated January 24, 2012, entitled: “2 companies admit to hiring illegal aliens, each forfeit $2 million”

In January 2012, Atrium Companies, the owner of Houston-based Champion Window and Advanced
Containment Systems Inc. (ACSI), agreed to adhere to revised immigration compliance programs and
to each pay $2 million as forfeited funds as part of a Non-Prosecution Agreement with the federal

4            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
government. Atrium Companies is the largest manufacturer and distributor of residential vinyl and
aluminum windows and patio doors in the United States with a total workforce of around 3,700
employees. The company operates 13 subsidiaries located in seven different states and Canada.

Both companies received multiple notices from the Social Security Administration known as “no-
match letters,” which indicated employee names and Social Security numbers did not match SSA
records. The companies failed to take corrective measures, resulting in the continued employment of
the undocumented aliens. For ACSI, this resulted in about $2 million in wages paid to these
undocumented aliens between 2005 and 2009. Champion derived at least $2 million in revenue from
the sales of its products manufactured and services provided with the use of its predominantly illegal
workforce from 2006 through 2010. Two deposits, each in the amount of $2 million, were deposited
into the Fund in August 2012.


Chicago ICE Agents seize $1,695,710 in U.S. Currency consistent with Bulk Cash Smuggling
Information included in the following forfeiture article is attributed to:
Case information from the Treasury Executive Office for Asset Forfeiture Liaison.

In March 2012, Chicago ICE agents responded to a request for assistance by a local police
department conducting a consent search. During the search, $1,695,710 in U.S. Currency was
discovered with a previously deported alien. Vacuum sealers and bags consistent with bulk cash
smuggling and money laundering activities were also detected, which indicated the cash was part of
an ongoing bulk cash smuggling investigation. The seized funds were subsequently forfeited and
deposited into the Fund in May 2012.


                A Look Back to Prior-Year Cases with continuing Forfeiture Deposits

IFCO Systems North America makes final forfeiture payment of $6 Million pursuant to
Agreement to pay $18.1 Million in Civil Forfeitures for Illegal Immigration and Employment
Practices
Information included in the following forfeiture article is attributed to: News Release dated January 23, 2009,
“Superseding indictments charge 7 IFCO managers with violating federal immigration law…..” and; About.Com article
by Rick LeBlanc, dated January 19, 2011, entitled: “IFCO Systems – Taking Steps to Avoid Illegal Hires”

On April 19, 2006, ICE agents, in concert with other federal and state authorities, conducted a work
site enforcement action at over 40 IFCO Systems of North America (IFCO) plants in 26 states, which
resulted in the detention of 1,182 illegal aliens working at those plants. In January 2009, a federal
grand jury in Albany, New York, returned superseding indictments on seven IFCO managers
stemming from an ICE investigation of illegal immigration and employment-related practices at
IFCO’s pallet management services plants nationwide.

The seven defendants were accused of conspiring, between 2003 and 2006, to harbor illegal aliens
employed by IFCO and to encourage and induce those illegal aliens to reside in the United States.
Four of these defendants were charged in a related conspiracy to defraud the IRS and the Social
Security Administration by submitting false payroll-related information to those agencies and to
facilitate the misuse of social security numbers by IFCO employees.

In December 2008, IFCO agreed to pay, over four years, $2.6 million in back pay and penalties
related to overtime violations, and $18.1 million in civil forfeitures. The last of the forfeiture

                                              SECTION I - OVERVIEW                                                  5
payments, $6,000,000, required pursuant to the agreement was deposited in the Fund in January
2012.

                          Another Look Back at Continuing Forfeiture Deposits
                           from a Caribbean Drug Trafficking Organization

ICE takes down Puerto Rican Drug Lord, dismantles largest Drug Trafficking Organization in
the Caribbean, with another deposit into the Fund, $1,488,290
Information included in the following forfeiture article is attributed to: Immigration and Customs Enforcement (ICE)
News Release, dated November 21, 2010, entitled: “ICE takes down Puerto Rican drug lord, dismantles largest drug
trafficking organization in the Caribbean;”and Immigration and Customs Enforcement (ICE) News Release dated March
28, 2012, entitled: “Puerto Rican drug lord and leader of largest Caribbean drug trafficking organization pleads guilty”

In late 2010, ICE arrested Jose Figueroa-Agosto (Agosto), the leader of the largest drug trafficking
organization in the Caribbean and 12 other members of his organization. The defendants were
charged in a 12-count indictment with conspiracy to import narcotics into the United States,
conspiracy to possess with intent to distribute controlled substances, and money laundering. The
indictment sought to forfeit the proceeds obtained as a result of such offenses, up to an amount of
$100 million.

According to the indictment, from 2005, the defendants conspired to import multi-kilogram quantities
of cocaine into Puerto Rico from places outside the United States, mainly the Dominican Republic,
all for significant financial gain and profit. The defendants also conspired to possess with intent to
distribute the multi-kilogram quantities of cocaine in Puerto Rico. Co-conspirators assumed various
roles within the drug trafficking organization in order to further the object of the conspiracy,
including but not limited to leaders, transporters, and facilitators.

According to the indictment, defendants attempted to create the appearance that their narcotics
proceeds were legitimate by purchasing assets through the use of “straw owners,” or “jockeys.” The
defendants purchased assets, utilized nominee bank accounts to deposit narcotics proceeds and made
payments for services with cash and money orders. This was done in order to conceal the true
ownership of the assets, conceal the source of the funds, and avoid tracing by financial institutions
and civil and criminal authorities, thereby protecting their interest in the properties. In March 2012,
Agosto pled guilty to drug trafficking.

A forfeiture related to this case in the amount of $1,488,290 was deposited in the Fund in July 2012.




6            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Custom s and Border P rotection (CBP )
Departm ent of Homeland Security
CBP had another productive year for seizures of cash and drugs at the border and border regions;
 the follow ing represents a sam ple of their law enforcem ent seizures that have been deposited
                          into the Treasury Forfeiture Fund in FY 2012 2 .


CBP Officers seize $304,389 in Smuggled Currency at El Paso Port
Information included in the following forfeiture article is attributed to: News Release dated November 7, 2011, entitled
“CBP Seizes $304,000 in Smuggled Currency at El Paso Port”

In early November 2011, CBP officers and Border Patrol agents working at the El Paso port of entry
seized $304,389, discovered hidden in a vehicle at the Bridge of the Americas international crossing.
Authorities were conducting a southbound inspection operation when a 2002 Dodge Ram pickup
being driven by a 22-year-old female attempted to leave the United States. CBP officers selected
the vehicle for an intensive examination, during which time currency detector canine, “Bora,”
searched the vehicle and alerted to the truck bed area.




             Figure 1 $304,389 Seized from a Vehicle at the Bridge of the Americas International Crossing


The officers continued their search and located a hidden compartment between the rear wall of the
cab of the pickup and a plastic bed liner. They removed eight tape-wrapped bundles from the

2
     With regard to any undeclared currency seizures identified in the following investigative narratives, individuals are
permitted to carry any amount of currency or monetary instruments into or out of the United States. However, if the
quantity is $10,000 or more, they must formally report the currency to CBP. Failure to declare may result in seizure of
the currency and/or arrest. An individual may petition for the return of currency seized by CBP officers, but the petitioner
must prove that the source and intended use of the currency was legitimate.

                                               SECTION I - OVERVIEW                                                        7
compartment which contained $304,389 in U.S. Currency. The currency was seized, subsequently
forfeited and deposited in the Fund in May 2012.


U.S. Border Patrol seizes $1,128,836 in Suspected Drug Money
Information included in the following forfeiture article is attributed to: Press Release dated November 14, 2011, entitled:
“U.S. Border Patrol Seizes more than $1 Million in Suspected Drug Money”

In mid November 2011, U.S. Border Patrol agents arrested one male and two elderly female Mexican
nationals for attempting to smuggle more than $1 million inside a Ford Explorer. Agents on patrol in
California stopped a suspicious 1997 Ford Explorer traveling southbound on Interstate 5, in
Oceanside. They requested and were granted consent to search the vehicle. An interior inspection of
the vehicle revealed two large black duffle bags with 74 cellophane-wrapped bundles containing U.S.
Currency. The 41-year old male driver was taken into custody. The two elderly female passengers
were found to be in violation of their terms of admission and were returned to Mexico. The currency
and vehicle were seized by the U.S. Border Patrol pending forfeiture proceedings. A total of
$1,128,836.00 was subsequently forfeited in this case and deposited in the Fund in January 2012.


CBP Officers seize $260,640 in Undeclared Currency
Information included in the following forfeiture article is attributed to: Press Release dated February 3, 2012, entitled:
“CBP Officers Intercept Illicit Currency”

In early February 2012, officers conducting outbound inspections selected a 40-year-old Mexican
woman and her teen-aged son for additional questioning, and a closer examination of their Buick
sedan. When officers noticed someone had tampered with the gas tank, they decided to remove it for
further inspection. Inside the tank, officers found 21 packages containing $260,640. The unreported
funds and vehicle were seized. The woman was arrested and her son was released to family
members. The seized currency was subsequently forfeited and deposited in the Fund in April 2012.




      Figure 2 $260,640 in Undeclared Currency seized from inside the Gas Tank of a Buick Sedan




8             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
CBP Officers seize $124,800 in Undeclared Currency
Information included in the following forfeiture article is attributed to: Press Release dated January 25, 2012, entitled
“CBP Officers Intercept Undeclared Currency”

In late January 2012, CPB officers assigned to Tucson seized $124,800 in undeclared U.S. Currency
from a couple headed for Mexico through the Dennis DeConcini Port. Officers conducting outbound
inspections selected a 37-year old Mexican man and his 33-year-old wife for additional questioning.
When officers put the couple’s Ford truck on a vehicle lift, they noticed someone had tampered with
the transfer case. When the transfer case was opened, officers discovered 34 packages containing
$124,800 in U.S. Currency. The male subject was arrested and his wife was released. The currency
was seized, subsequently forfeited and deposited in the Fund in April 2012.




         Figure 3      $124,800 in Undeclared U.S. Currency seized from a Mexico-bound Vehicle


U.S. Border Patrol Officers seize $118,187 from a Suspicious Vehicle
Information included in the following forfeiture article is attributed to:
Press Release dated November 8, 2011, entitled: “Yuma Border Patrol Agents Seize Large Sum of Cash”




                              Figure 4 $118,187.52 seized from Vehicle in Yuma District



                                                SECTION I - OVERVIEW                                                        9
In early November 2011, Border Patrol agents from the Yuma Sector conducting roving patrol duties
noticed suspicious behavior and erratic actions of the driver of blue Nissan Sentra. Agents followed
the vehicle, developed additional suspicions and pulled the vehicle over. The occupants, two U.S.
citizens, consented to a vehicle search. Agents searched the trunk of the vehicle and found a bag
containing neatly folded bed linens. Agents opened the bag and discovered multiple stacks of cash
bundled together with rubber bands. In total, agents seized $118,187.52. The cash was subsequently
forfeited and deposited in the Fund in January 2012.


CBP Officers seize $112,500 in U.S. Currency headed into Mexico
Information included in the following forfeiture article is attributed to: Press Release dated December 21, 2011, entitled:
“San Ysidro CBP Officers Stop More than $112,000 Headed into Mexico”

In late December 2011, CBP officers conducting inspections of travelers in San Diego selected a
black Honda Accord for inspection. Two 20-year old male U.S. citizens were in the car. A CBP
officer screened the vehicle with a currency/firearms detector dog and the canine alerted to the
dashboard area of the vehicle. Officers also utilized an x-ray imaging system that revealed
anomalies within the dashboard and a fiber optic scope that showed packages in a non-factory
compartment in the dash. Officers discovered six cellophane-wrapped packages of unreported
currency totaling $112,500 within the compartment. The vehicle and currency were seized and the
two occupants were turned over to Immigration and Customs Enforcement agents for further
investigation. The $112,500 was subsequently forfeited and deposited in the Fund in May 2012.




Figure 5 CBP officers discovered six cellophane-wrapped packages of unreported currency totaling $112,500 hidden
within a non-factory compartment of a vehicle.


CBP Officers seize $350,000 in U.S. Currency headed into Mexico
Information included in the following forfeiture article is attributed to: Case information provided by a TEOAF Liaison
from Immigration and Customs Enforcement (ICE).

Again, in late October 2011, the Laredo Anti-Terrorism Contraband Enforcement Team (A-TCET)
Team, along with Laredo Sector Border Patrol Agents, was conducting pulse and surge operations at
Lincoln Juarez Bridge, Laredo Texas. A 2006 tan Subaru bearing Texas plates driven by a female,

10            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
later identified as a U.S. citizen, was selected for inspection. A CBP Officer obtained a negative
declaration from the driver for currency or monetary instruments in excess of $10,000, weapons and
ammunition. A positive K-9 alert led to the discovery of tampering on bolts on the front driver side
quarter panel. A secondary x-ray of the vehicle resulted in the identification of anomalies in the
firewall and rocker panels. A total of 20 bundles wrapped in black electrical tape and clear plastic
were extracted from the firewall and rocker panels. The bundles contained U.S. Currency totaling
$350,000. The currency was subsequently forfeited and deposited in the Fund in June 2012.

                                                 Good Government

            Law Enforcement Seizures by Member Bureaus that May Not Result in
      Treasury Forfeiture Fund Deposits but are Valuable to the International Community

CBP Officers Nab a Man Trying to Smuggle Heroin in Bottles of Scotch
Information included in the following forfeiture article is attributed to: An article in APP.com, dated January 4, 2012,
entitled “Man nabbed at Newark Airport trying to smuggle heroin in bottles of scotch.” The article is also the source of
the photo.

In late December 2011, a man traveling from South America to the United States via the Newark
Liberty International Airport was arrested for trying to smuggle 25 pounds of heroin into the country.
CBP Officers selected the individual for a baggage examination upon his arrival in New Jersey
aboard a flight originating in Medellin, Colombia. He admitted to ownership of two pieces of
checked luggage, and during a search of that luggage, a brown powdery substance was discovered
concealed in packages of plastic flags and between glued photographs. The substances tested
positive for heroin. After further scrutiny, four bottles of Chivas Royal Solute Scotch were found to
contain packages of a substance that also tested positive for heroin. The approximate street value of
the heroin was nearly $700,000. The man was arrested and faces federal narcotics smuggling
charges.




                            Figure 6 Bottles of Chivas Royal Solute found to contain heroin.




                                               SECTION I - OVERVIEW                                                        11
U. S. Secret Service
Departm ent of Homeland Security

U.S. v. $2,755,349.56 In Rem Forfeiture
Information included in the following forfeiture article is attributed to: Case Information from the U.S. Secret Service;
and Seizure Warrant for Case Number 2:11-mj-1016 F + M SPC, filed in the Middle District of Florida, Fort Myers
Division, dated February 10, 2011.

In March 2010, the U.S. Secret Service identified a shell company in Switzerland that was laundering
illicit funds to persons across the United States. The investigation revealed Lakesand Pesim Energy
AG was transmitting millions of dollars while attempting to conceal the actual source. The company
had not registered as a money remitting business and was in violation of both state and federal law.
In February 2010, a seizure warrant was issued for “certain property known as the contents of all
incoming monetary wire transfers originating from BHF Bank, sent on behalf of Lakesand Pesim
Energey AG c/o Swiss Corporate Services GMBA to United States-based customers, through
Standard Charter Bank located at One Madison Avenue, New York, New York for a period of (10)
days.” The sum of $2,755,349.56 was seized, subsequently forfeited and deposited in the Fund in
January 2012.

U.S. v. $2,963,256 In Rem Forfeiture
Information included in the following forfeiture article is attributed to: Case Information from the U.S. Secret Service;
the United States Amended Complaint for Forfeiture in rem Civil Action No. 6:11-01337-JMC filed June 15, 2011
($1,323,590.19) ; the United States Complaint for Forfeiture in rem Civil Action No. 6:11-1322-JMC ($819,117.82); and
the Order Granting Default Judgment, and Granting Judgment and Decree of Forfeiture - Civil Action No. 6:11-1336-
HFF filed September 27, 2011 ($820,548.11).

In February 2011, the U.S. Secret Service identified three foreign shell companies laundering illicit
funds to persons across the United States. The investigation revealed that Trading 24/7 Limited, IXS
International, and Prime Investments Consultants were transmitting millions of dollars while
attempting to conceal the actual source. These companies had not registered as money remitting
businesses and were in violation of both state and federal law. In June 2011, Warrants In Rem were
issued against $819,117.82, $1,323,590.19, and $820,548.11 in U.S. currency. The first two amounts
were seized from Citibank, NA, and the third amount was seized from Standard Charter Bank, New
York. These sums, totaling $2,963,256.12, were subsequently forfeited and deposited in the Fund in
October and November 2011.


Tax and Trade Bureau (TTB), Departm ent of the Treasury

                                        Equitable Sharing Revenue Case

Jacobs Manufacturing agrees to forfeit $1.25 Million, $187,433.83 deposited this year
Information included in the following forfeiture article is attributed to: News Release dated July 5, 2011, entitled: ATF
and TTB Accept $1.25 Million Cigarette Settlement.

Jacobs Manufacturing, an unlicensed cigarette manufacturer on the New York St. Regis Mohawk
Indian Reservation, agreed to forfeit $1.25 million dollars to the Department of Justice, Bureau of
Alcohol, Tobacco and Firearms (ATF) for prior violations of the Contraband Cigarette Trafficking
Act (CCTA) and additionally agreed to come into compliance with all applicable federal statutes and

12            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
regulations. Jacobs will also have to pay all required cigarette taxes under the Internal Revenue Code
of 1986 (IRC) and agreed not to illegally operate a cigarette internet site in violation of the Prevent
All Cigarette Trafficking Act (PACT) Act. Treasury’s Tax and Trade Bureau (TTB), which
investigated the case along with ATF, agreed to issue a tobacco manufacturing permit to Jacobs.

TTB will receive equitable sharing revenue from the Department of Justice Assets Forfeiture Fund,
reflecting the role of Treasury Forfeiture Fund member bureaus in the forfeiture. TTB’s share is 60
percent of the $1.25 Million, for a total of $750,000. Pursuant to the agreement, payments are due to
the Department of Justice (DOJ) in three installments in March 2012, December 2012, and June
2013. The first installment of $250,000 was received by DOJ in March 2012. Related to this
installment payment, in August 2012, an equitable share in the amount of $187,433.83 was received
from the DOJ forfeiture fund for this case.

                    Continuing Deposits from this Equitable Sharing Revenue Case

Tarbell Inc. forfeits $1.75 Million for Licensing Violations, $437,411.16 deposited this year
Information included in the following forfeiture article is attributed to: Lori Shull article in Watertown Daily Times, April
14, 2010, “Tarbell agrees to get licenses”

In FY 2010, Tarbell Inc., a cigarette manufacturer on the Akwesasne reservation voluntarily agreed to
comply with federal tax laws and obtain licenses from the government, and agreed to forfeit $1.75
million to the Bureau of Alcohol, Tobacco, Firearms and Explosives of the Department of Justice as
payment for selling unlicensed cigarettes. The company also agreed not to sell cigarettes over the
Internet, which violates federal law. The financial settlement does not mean that the company admits
any wrongdoing, but future violations would be criminal offenses. Of the amount forfeited, $875,000
was equitably shared with the Treasury Forfeiture Fund representing the role of TTB in the forfeiture.
In August 2012, equitable shares in the amount of $437,411.16 were received from the DOJ
forfeiture fund and deposited in the Fund.




                                                SECTION I - OVERVIEW                                                      13
U. S. Coast Guard
Departm ent of Homeland Security

        The U.S. Coast Guard continues its close working relationship with the legacy Customs
        bureaus and functions in a member-bureau capacity. The Coast Guard also maintains a
        close working relationship with the Drug Enforcement Administration (DEA) of the
        Department of Justice, assisting with drug boat interceptions on the high seas which are
        then turned over to the Department of Justice for prosecution.

Coast Guard Cutter Cushing seizes $190,000
Information included in the following forfeiture article is attributed to: CBP Press Release, dated: December 30, 2011,
entitled: “CBP Personnel Assist in seizure of $190,000 from Vessel in Puerto Rico;” and the Coast Guard Compass
article, by Lt. Stephanie Young, dated January 5, 2012, entitled: “Weapon & ammunition seized in Caribbean waters.”

In late December 2011, Customs and Border Patrol (CBP) Maritime Patrol Aircraft detected a vessel
approximately 60-nautical miles northwest of Puerto Rico. The vessel had no visible registration,
flag or markings. CBP personnel coordinated with watch-standers at Coast Guard Sector San Juan to
intercept the vessel at sea. An HC-144 Ocean Sentry fixed-wing aircraft crew from Cost Guard Air
Station Miami and Coast Guard Cutter Cushing were diverted to interdict the vessel.




           Figure 7 The vessel boarded by the Coast Guard Cutter Cushing, no visible registration.

Once onboard, members of the Cutter Cushing boarding team searched the vessel. Caribbean Border
Interagency Group (CBIG) federal law enforcement authorities seized $190,000, a Cal-Tech 5.56mm
semi-automatic pistol and approximately 300 rounds of ammunition from inside a single-engine,
yola-type vessel, northwest of Puerto Rico.




14           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Figure 8 $190,000 in currency, a Semi-automatic weapon and 300 rounds of ammunition seized from the vessel.

The five individuals onboard the vessel claimed to be citizens of the Dominican Republic. Cutter
Cushing crew members took custody of the five suspects, seized the currency and the weapon and
turned them over to Immigration and Customs Enforcement (ICE) personnel at Arecibo, at the
Mayaguez Sea Port, Puerto Rico.




                                            SECTION I - OVERVIEW                                              15
Program and Fund Highlights

The Treasury Forfeiture Fund is a “special receipt account.” Such accounts represent federal fund
collections earmarked by law for a specific purpose. The enabling legislation for the Treasury
Forfeiture Fund (31 U.S.C. § 9703) defines those purposes for which Treasury forfeiture revenue may
be used. Once property or cash is seized, there is a forfeiture process. Upon forfeiture, seized
currency, initially deposited into a suspense account, or holding account, is transferred to the Fund as
forfeited revenue. Once forfeited, physical properties are sold and the proceeds are deposited into the
Fund as forfeited revenue. It is this forfeiture revenue that comprises the budget authority for
meeting expenses of running Treasury’s forfeiture program.

Expenses of the Fund are set in a relative priority so that unavoidable or “mandatory” costs are met
first as a matter of policy. Expenses may not exceed revenue in the Fund. The Fund has several
different spending authorities. Each of them is described below.

M andatory Authority

The mandatory authority items are generally used to meet “business expenses” of the Fund, including
expenses of storing and maintaining seized and forfeited assets, valid liens and mortgages,
investigative expenses incurred in pursuing a seizure, information and inventory systems, and certain
costs of local police agencies incurred in joint law enforcement operations. Following forfeiture,
equitable shares are paid to state and local law enforcement agencies that contributed to the seizure
activity at a level proportionate to their involvement.

It is a strategic goal of the Fund to emphasize and monitor high impact forfeitures. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives. These authorities
include the Purchase of Evidence and Information, expenses associated with Joint Operations,
Investigative Expenses Leading to Seizure, and Asset Identification and Removal Groups. In recent
years, funding provided to computer forensic investigative tools has yielded high impact results.

Secretary’s Enforcem ent Fund

The Secretary’s Enforcement Fund (SEF) is derived from equitable shares received from the Justice
Department’s forfeiture fund for work done by law enforcement bureaus participating in the Treasury
Forfeiture Fund leading to Justice forfeitures. SEF revenue is available for federal law enforcement
purposes of any Treasury law enforcement organization or law enforcement bureau that participates
in the Treasury Forfeiture Fund. In FY 2012, the Fund expensed just over $9.5 million in SEF
authority as compared to just under $1 million in FY 2011, an increase of about $8.5 million. The
allocation of SEF resources to bureaus was restricted in FY 2011 and FY 2012 by the need to meet
enacted budget rescissions.

Super Surplus

Super Surplus represents the remaining unobligated balance after an amount is reserved for Fund
operations in the next fiscal year. Super Surplus can be used for any federal law enforcement
purpose. In FY 2012, the Fund expensed $78.7 million in Super Surplus authority as compared to
$102.5 million in FY 2011, a decrease of 23 percent.

16         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Program Performance

Strategic View

Fund management continues to focus on strategic cases and investigations that result in high-impact
forfeitures. We believe this approach affects the greatest damage to criminal organizations while
accomplishing the ultimate objective – to disrupt and dismantle criminal activity.        Generally,
significant forfeitures require longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives including
Purchase of Evidence and Information, expenses associated with Joint Operations, Investigative
Expenses Leading to Seizure, Asset Identification and Removal teams and state-of-the-art Computer
Forensics capability.

FY 2012 was a successful revenue year by our member bureaus and a banner year in equitable share
deposits received from the Department of Justice (DOJ) forfeiture fund for forfeitures in which one or
more of our member bureaus played a role. Equitable shares totaled $108.8 million in FY 2012 as
compared to $95.4 million in FY 2011. In addition, the Fund continues to support record levels of
sharing of federal forfeitures with the state and local and foreign governments that contributed to the
successful seizure and forfeiture activity of the Fund. The Fund expensed $110.9 million for state,
local and foreign equitable sharing expenses in FY 2012 as compared to $68.5 million in FY 2011.
Included in these sums are $3.5 million and $0.2 million for equitable sharing expenses with foreign
countries that assisted in cases during FY 2012 and FY 2011, respectively. These are important
resources afforded by policy of the Treasury Forfeiture Fund to protect and preserve the valuable
working relationships between our federal law enforcement bureaus and the critically important state,
local and foreign law enforcement agencies that work with them in an investigative capacity day-in
and day-out.

Strategic M ission and Goal

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The
goal of the Treasury Forfeiture Fund is to support the Department of the Treasury’s national asset
forfeiture program in a manner that results in federal law enforcement’s continued and effective use
of asset forfeiture as a high-impact law enforcement sanction to disrupt and dismantle criminal
activity. To achieve our mission and goal, the program must be administered in a fiscally responsible
manner that seeks to minimize the administrative costs incurred, thereby maximizing the benefits for
law enforcement and the society it protects.

M ulti-Departm ental Fund

The Treasury Forfeiture Fund continued in its capacity as a multi-Departmental Fund in FY 2012,
representing the interests of law enforcement components of the Departments of Treasury and
Homeland Security. FY 2012 posed continued management challenges including oversight of
significant general property contract expenses associated with an increasingly complex forfeiture
program.     In addition, commensurate with the successful revenue year, there were significant
expenses incurred by the bureaus to run their programs. In the midst of this period of growth and
change, the Fund’s family of law enforcement bureaus continued their hard work of federal law
enforcement and the application of asset forfeiture as a sanction to bring criminals to justice.
                                       SECTION I - OVERVIEW                                         17
FY 2012 continued a pattern of robust revenue years with regular revenue of $516.6 million from all
sources, very successful even if less than the FY 2011 revenue of $868.1 million. As we enter fiscal
year 2013, the Fund remains focused on support for strategic investigative initiatives that will have
the greatest impact on national and international criminal enterprise including valuable training and
investigative expense funding which emphasizes high-impact cases.


P erformance M easure

In FY 2012, the Fund measured performance through the use of the following performance measure:
Percent of forfeited cash proceeds resulting from high-impact cases. This measures the percentage of
forfeited cash proceeds resulting from high-impact cases (those with currency seizures in excess of
$100,000). Focusing on strategic cases and investigations which result in high-impact seizures will
affect the greatest damage to criminal organizations while accomplishing the ultimate objective – to
disrupt and dismantle criminal activity.

Results

The Fund performance measure and result for FY 2012 is as follows:


                                                        FY 2011         FY 2012         FY 2012
            Performance Measure                          Actual          Target          Actual

Percent of forfeited cash proceeds resulting from        91.44%           80%             76.38%
high-impact cases

A target of 75 percent high-impact cases was set for FY 2010 and prior years since inception of the
performance measure in FY 2002. However, for FY 2011, the target was increased to 80 percent,
reflecting member bureaus’ prior success in meeting the previous target. This is a fixed target for the
Fund designed to afford our law enforcement bureaus the opportunity to undertake smaller seizure
activity that is important to the overall federal law enforcement mission. The final percentage for FY
2012 was 76.38 percent, just under the new target. This compares with our FY 2010 and FY 2011
performance of 93.11 percent and 91.44 percent, respectively. Our member bureaus missed the target
because of smaller, non high-impact cases during FY 2012. While TEOAF management works to
urge high-impact cases, our member bureaus decide which forfeitures to pursue.

The performance of our member bureaus is excellent and reflects Fund management’s longstanding
emphasis on high-impact forfeiture strategies as well as the use of Fund authorities to assist member
bureaus with larger cases that may take longer or require additional resources not otherwise available.
This measure was put into effect beginning with FY 2002, and in all but 3 years, member bureaus
met the target for high-impact forfeitures.

This measure is calculated by dividing the total amount of forfeited cash proceeds from cases greater
than $100,000 by the total amount of forfeited cash proceeds for all cases.



18         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Financial Statement Highlights

The following provides a brief explanation for each major section of the audited financial statements
accompanying this report for the fiscal year ended September 30, 2012.

These statements have been prepared to disclose the financial position of the Fund, its net costs,
changes in net position, and budgetary resources, pursuant to the requirements of the Chief Financial
Officers Act of 1990 and the Government Management Reform Act of 1994 (GMRA). While the
financial statements have been prepared from the books and records of the Fund in accordance with
the formats prescribed by the Office of Management and Budget, the statements are different from
the financial reports used to monitor and control budgetary resources that are prepared from the same
books and records and are subsequently presented in federal budget documents. Further, the notes to
the financial statements and the independent auditor’s opinion and reports on internal control over
financial reporting, and compliance with laws and regulations are also integral components to
understanding fully the financial highlights of Fund operations described in this chapter.

Statements: Changes in Net Position

Follows are brief highlights from the Statements of Changes in Net Position for FY 2012 and 2011.

Net Position – End of Year. For FY 2012, the Net Position for the Fund at the end of the year, an
indicator of the future capability to support ongoing operations of the Fund, totaled $1.556 billion
versus $1.453 billion at the end of FY 2011. Both years closed with a strong and viable net position
with which to commence the next fiscal year’s operations.

Total Gross Non-Exchange Revenues. This line item on the Statements of Changes in Net Position
is the best indicator of regular “business-type” income of the account on an annual basis. For FY
2012, the Fund closed with $516.6 million in Gross Non-Exchange Revenues and a total of $868.1
million for FY 2011, reflecting two successful, high-impact revenue years for the Treasury Forfeiture
Fund.

Proceeds from Participating with other Federal Agencies. This line item on the Statements of
Changes in Net Position indicates revenue earned from the participation of Treasury Forfeiture Fund
law enforcement bureaus in the seizures leading to forfeiture of bureaus that participate in the
Department of Justice Assets Forfeiture Fund or with the forfeiture fund of the U.S. Postal Service
(Postal Service). It is noted that this category of revenue is recognized when received on deposit by
the Treasury Forfeiture Fund. Therefore, there is no accrual recorded on the Fund’s financial
statements for this category of revenue.

As of the close of FY 2012, Treasury Forfeiture Fund bureaus earned a total of $108.8 million in
revenue from participation in the seizures leading to forfeiture of the Justice and Postal Service
forfeiture funds as compared to a total of $95.4 million during FY 2011. Fund management
continues to work with the Department of Justice to identify delays and/or explain downward
adjustments to percentages associated with equitable sharing payments owed to the Treasury
Forfeiture Fund. This revenue affords Treasury management significant funding flexibilities for our
participating agencies as the authority is broad and not confined to funding program costs; it can be
used for any law enforcement purpose of our participating bureaus. The allocation of this type of
revenue for FY 2011 and FY 2012 was restricted by the need to meet enacted budget rescissions.


                                       SECTION I - OVERVIEW                                         19
Cost of Operations. For FY 2012, the Cost of Operations totaled $161.0 million, down from $177.1
million in FY 2011.

Investment Interest Income. The Fund is authorized to invest cash balances in Treasury securities.
As of September 30, 2012, investments totaled $3.1 billion, up from $2.3 billion invested as of
September 30, 2011. Given the similar investment balance and continuing negligible interest rates on
Treasury securities during FY 2012, investment income totaled just over 1.0 million in FY 2012, as
compared to just under $1.4 million in FY 2011.

Equitable Sharing with Federal, State and Local Governments, and Foreign Countries. Each
year, the Fund pays tens of millions of dollars to state and local law enforcement agencies, and
foreign governments, for their participation in seizures that lead to forfeitures of the Treasury
Forfeiture Fund. State and local law enforcement agencies can use these resources to augment their
law enforcement budgets to fight crime in their jurisdictions. Without these funds, budgets of the
local municipalities would be taxed to provide these important resources or the need would go unmet.
During FY 2012, the Fund shared a total of $114.4 million with other federal, state and local law
enforcement agencies, and another $3.5 million with foreign countries. This compares with $96.3
million shared with other federal, state and local law enforcement agencies during FY 2011, and
another $0.2 million with foreign countries in FY 2011.

Victim Restitution. During FY 2012, the Fund paid $46.6 million in restitution to victims as
compared to $24.3 million in FY 2011.

Summary of Statements of Changes in Net Position. The Fund closed with a strong net position in
FY 2012. Management will continue to emphasize high-impact cases by participating law
enforcement bureaus. The FY 2012 performance with forfeiture revenue earnings of $516.6 million
from all sources, and nearly meeting the new higher performance measure target rate of high-impact
cases, is truly a credit to the dedicated law enforcement personnel of our participating law
enforcement bureaus.

Statements: Net Cost

Costs of the Forfeiture Program – Intra-governmental. After revenue is applied toward policy
mandates such as equitable sharing, shown in the Statements of Changes in Net Position as negative
revenue or applied non-exchange revenue, the remaining financing supports the law enforcement
activities of the Fund and pays for the storage of seized and forfeited property and sales associated
with the disposition of forfeited property.

On the Statements of Net Cost, the Net Cost of Operations totaled $161.0 million in FY 2012, down
from $177.1 million in FY 2011.

Intra-governmental. This cost category totaled $100.5 million in FY 2012, down from $115.1
million in FY 2011. The amounts represent costs incurred by participating bureaus in running their
respective forfeiture programs.

National Seized Property Contracts. One of the largest program costs of the Fund is the storage,
maintenance and disposal of real and personal property. During FY 2012, general property was
maintained by VSE Corporation and real property was maintained by the CWS Marketing Group

20         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
both contracts of the Department of the Treasury. In FY 2012, expenses of these two contracts
totaled $48.3 million, down from $50.4 million expensed for the two contracts in FY 2011.

Balance Sheet

Assets, Liabilities and Net Position

Total assets of the Fund increased in FY 2012 to $3.4 billion, up from $2.5 billion in FY 2011, an
increase in asset value of over 36.0 percent. If seized currency and other monetary assets, which are
assets in the custody of the government but not yet owned by the government, are backed out of both
figures, the adjusted total assets of the Fund increased to $1.75 billion in FY 2012, up very slightly
from $1.7 billion in FY 2011. During FY 2012, total liabilities of the Fund increased to $1.9 billion,
up from $1.1 billion in FY 2011. If seized currency and other monetary assets, which are also shown
as a liability because they are not yet owned by the government, are backed out of both figures, the
adjusted total liabilities of the Fund decreases to $195.5 million in FY 2012, down from $229.2
million in FY 2011.

With increasing asset amounts and more moderately increasing costs, the Cumulative Results of
Operations, i.e., retained earnings, increased at the end of FY 2012 to a total of $1.556 billion, up
from $1.453 billion at the end of FY 2011.

Financial and Program Performance - What is needed and planned. OMB Circular A-136,
Financial Reporting Requirements, requires that agencies include an explanation of what needs to be
done and what is being planned to improve financial or program performance. In this regard, Fund
management continues to work closely with member bureaus, through the financial planning process,
to review revenue and expense projections during the operating year.

Auditor’s Findings

FY 2012 Audit. The Fund’s independent auditors have given the FY 2012 financial statements an
Unqualified Opinion with no material weaknesses or significant deficiencies in internal control over
financial reporting identified. There are no management letter findings for FY 2012.

Summary of Financial Statement Highlights

Net Position. To summarize, Fund management concluded a highly productive FY 2012 “in the
black,” with the necessary resources to commence the business of the asset forfeiture program for FY
2013. Fund management declared a Super Surplus from FY 2012 operations and will work to
recognize the hard work of our participating bureaus in the allocation of these resources.




                                       SECTION I - OVERVIEW                                        21
A Look Forw ard


Fund management will continue to work with our large and diverse array of federal law enforcement
bureaus as they undertake increasingly sophisticated methods and global effort to secure the financial
and commercial markets of the nation and the world given the interdependence of financial systems.
In addition, our bureaus support immigration enforcement that is designed to identify illegal
smuggling to deter its impact on the nation’s financial infrastructure and terrorism initiatives and to
ensure that human smugglers do not harm unsuspecting victims keen on seeking a new if illegal start
in the United States.      Emphasis will continue to be placed on ever-evolving state-of-the-art
investigative techniques, high-impact major case initiatives and training to support these areas of
emphasis. This has and will continue to be the key to the growing success and law enforcement reach
of the Treasury Forfeiture Fund.

Limitations of the Financial Statements. As required by OMB Circular A-136, Fund management
makes the following statements regarding the limitations of the financial statements:

•    The financial statements have been prepared to report the financial position and results of
     operations of the entity, pursuant to the requirements of 31 USC § 3515(b).

•    While the statements have been prepared from the books and records of the entity in accordance
     with the formats prescribed by OMB, the statements are in addition to the financial reports used
     to monitor and control budgetary resources which are prepared from the same books and records.

•    The statements should be read with the realization that they are for a component of the U.S.
     government, a sovereign entity. One implication of this is that liabilities cannot be liquidated
     without legislation that provides resources to do so.




22           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
          SECTION II

INDEPENDENT AUDITOR’S REPORTS
THIS PAGE INTENTIONALLY LEFT BLANK
                   Certified Public Accountants
                   & Consultants


                                      Independent Auditor's Report on Financial Statements
www.gkacpa.com
                            Inspector General
                            United States Department of the Treasury
                            Washington, D.C.


                            We have audited the Principal Statements (balance sheets and the related
                            statements of net cost, changes in net position, and budgetary resources,
                            hereinafter referred to as “financial statements”) of the Department of the
                            Treasury Forfeiture Fund (the Fund) as of and for the years ended September
                            30, 2012 and 2011. These financial statements are the responsibility of Fund
                            Management. Our responsibility is to express an opinion on these financial
                            statements based on our audits.

                            We conducted our audits in accordance with auditing standards generally
                            accepted in the United States of America; the standards applicable to financial
                            audits contained in Government Auditing Standards, issued by the Comptroller
                            General of the United States; and applicable provisions of Office of
                            Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                            Federal Financial Statements, as amended. Those standards require that we
                            plan and perform the audits to obtain reasonable assurance about whether the
                            financial statements are free of material misstatement. An audit includes
                            examining, on a test basis, evidence supporting the amounts and disclosures in
                            the financial statements. An audit also includes assessing the accounting
                            principles used and significant estimates made by Fund Management, as well
                            as evaluating the overall financial statement presentation. We believe that our
                            audits provide a reasonable basis for our opinion.

                            In our opinion, the financial statements referred to above present fairly, in all
                            material respects, the financial position of the Fund as of September 30, 2012
                            and 2011, and its net costs, changes in net position, and budgetary resources,
                            for the years then ended, in conformity with accounting principles generally
                            accepted in the United States of America.

                            In accordance with Government Auditing Standards, we have also issued a
                            report dated October 31, 2012, on our consideration of the Fund's internal
                            control over financial reporting and a report dated October 31, 2012, on our
  1015 18th Street, NW      tests of its compliance with laws, regulations, and contracts. These reports are
        Suite 200
 Washington, DC 20036       an integral part of an audit performed in accordance with Government Auditing
   Tel: 202-857-1777
   Fax: 202-857-1778
                                                   Member of the American Institute of Certified Public Accountants
Standards, and should be read in conjunction with this report in considering the results of our audits.

U.S. generally accepted accounting principles require that the information in Section I: Overview,
and Section IV: Required Supplemental Information be presented to supplement the basic financial
statements referred to in the first paragraph of this report. Such information, although not a part of the
basic financial statements, is required by the Federal Accounting Standards Advisory Board who
considers it to be an essential part of financial reporting for placing the basic financial statements in
an appropriate operational, economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with auditing standards
generally accepted in the United States of America, which consisted of inquiries of management
about the methods of preparing the information and comparing the information for consistency with
management’s responses to our inquiries, the basic financial statements, and other knowledge we
obtained during our audits of the basic financial statements. We do not express an opinion or provide
any assurance on the information because the limited procedures do not provide us with sufficient
evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements
taken as a whole. The information in the Message from the Director, and Section V: Other
Accompanying Information is presented for the purposes of additional analysis and is not a required
part of the basic financial statements. Such information has not been subjected to the auditing
procedures applied in the audits of the basic financial statements, and accordingly, we do not express
an opinion or provide any assurance on them.




October 31, 2012




24          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
                   Certified Public Accountants
                   & Consultants


                                Independent Auditor's Report on Internal Control over Financial
www.gkacpa.com                                           Reporting

                            Inspector General
                            United States Department of the Treasury
                            Washington, D.C.

                            We have audited the Principal Statements (balance sheet and the related
                            statements of net cost, changes in net position, and budgetary resources,
                            hereinafter referred to as “financial statements”) of the Department of the
                            Treasury Forfeiture Fund (the Fund) as of and for the year ended September
                            30, 2012, and have issued our report thereon dated October 31, 2012. We
                            conducted our audit in accordance with auditing standards generally accepted
                            in the United States of America; the standards applicable to financial audits
                            contained in Government Auditing Standards, issued by the Comptroller
                            General of the United States; and, applicable provisions of Office of
                            Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                            Federal Financial Statements, as amended.

                            In planning and performing our audit, we considered the Fund’s internal
                            control over financial reporting by obtaining an understanding of the design
                            effectiveness of the Fund’s internal control, determining whether these internal
                            controls had been placed in operation, assessing control risk, and performing
                            tests of controls as a basis for designing our auditing procedures for the
                            purpose of expressing our opinion on the financial statements. We limited our
                            internal control testing to those controls necessary to achieve the objectives
                            described in OMB Bulletin No. 07-04 and Government Auditing Standards.
                            We did not test all internal controls relevant to operating objectives as broadly
                            defined by the Federal Managers’ Financial Integrity Act of 1982, such as
                            those controls relevant to ensuring efficient operations. The objective of our
                            audit was not to express an opinion on the effectiveness of the Fund’s internal
                            control over financial reporting. Consequently, we do not express an opinion
                            on internal control over financial reporting.

                            Our consideration of internal control over financial reporting was for the
                            limited purpose described in the preceding paragraph and was not designed to
                            identify all deficiencies in internal control over financial reporting that might
                            be deficiencies, significant deficiencies or material weaknesses. Under
                            standards issued by the American Institute of Certified Public Accountants, a
                            deficiency in internal control exists when the design or operation of a control
  1015 18th Street, NW      does not allow management or employees, in the normal course of performing
        Suite 200
 Washington, DC 20036
   Tel: 202-857-1777
                                                   Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
their assigned functions, to prevent, or detect and correct misstatements on a timely basis. A
significant deficiency is a deficiency or combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. A material weakness is a deficiency, or a combination of deficiencies, in internal control
such that there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis.

We did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses, as defined above.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General and the Government Accountability Office and is not intended to be, and should
not be used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




October 31, 2012




26         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
                 Certified Public Accountants
                 & Consultants



www.gkacpa.com
                          Independent Auditor's Report on Compliance with Laws and Regulations

                          Inspector General
                          United States Department of the Treasury
                          Washington, D.C.

                          We have audited the Principal Statements (balance sheet and the related
                          statements of net cost, changes in net position, and budgetary resources,
                          hereinafter referred to as “financial statements”) of the Department of the
                          Treasury Forfeiture Fund (the Fund) as of and for the year ended September
                          30, 2012, and have issued our report thereon dated October 31, 2012. We
                          conducted our audit in accordance with auditing standards generally accepted
                          in the United States of America; the standards applicable to financial audits
                          contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and, applicable provisions of Office of
                          Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                          Federal Financial Statements, as amended.

                          The management of the Fund is responsible for complying with laws,
                          regulations, and contracts applicable to the Fund. As part of obtaining
                          reasonable assurance about whether the Fund’s financial statements are free of
                          material misstatement, we performed tests of its compliance with certain
                          provisions of laws, regulations, and contracts, noncompliance with which
                          could have a direct and material effect on the determination of financial
                          statement amounts, and certain other laws and regulations specified in OMB
                          Bulletin No. 07-04, including the requirements referred to in Section 803(a) of
                          the Federal Financial Management Improvement Act (FFMIA) of 1996. We
                          limited our tests of compliance to these provisions and we did not test
                          compliance with all laws, regulations, and contracts applicable to the Fund.
                          Providing an opinion on compliance with certain provisions of laws,
                          regulations, and contracts was not an objective of our audit and, accordingly,
                          we do not express such an opinion.

                          The results of our tests of compliance disclosed no instances of noncompliance
                          with laws, regulations, and contracts discussed in the preceding paragraph,
                          exclusive of FFMIA, that are required to be reported under Government
                          Auditing Standards and OMB Bulletin No. 07-04.
  1015 18th Street, NW
        Suite 200
 Washington, DC 20036
   Tel: 202-857-1777                             Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
Under FFMIA, we are required to report whether the Fund’s financial management systems
substantially comply with the Federal financial management systems requirements, applicable
Federal accounting standards, and the United States Government Standard General Ledger at the
transaction level. To meet this requirement, we performed tests of compliance with FFMIA section
803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which the Fund’s financial management
systems did not substantially comply with the three requirements discussed in the preceding
paragraph.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General, and the Government Accountability Office and is not intended to be, and should
not be used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




October 31, 2012




28         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
          SECTION III

FINANCIAL STATEMENTS AND NOTES
                            Department of the Treasury Forfeiture Fund
                                       BALANCE SHEETS
                                As of September 30, 2012 and 2011
                                       (Dollars in thousands)

                                                                                     2012         2011
Assets:

Intragovernmental:
       Fund balance with Treasury                                            $      14,526   $ 23,094
       Investments and related interest receivable (Note 3)                      3,136,274   2,309,275
       Advances                                                                         40          79
   Total Intragovernmental                                                       3,150,840   2,332,448

          Cash and other monetary assets (Note 5)                                 205,137      119,766
          Accounts Receivable                                                       1,987          430
                                                                                  207,124      120,196
      Forfeited property (Note 6)
         Held for sale, net of mortgages, liens and claims                       83,143          52,227
         To be shared with federal, state or local, or foreign governments        1,157           1,517
      Total forfeited property, net of mortgages, liens and claims               84,300          53,744
      Capitalized software (Note 9)                                                 660               -
Total Assets                                                                 $3,442,924      $2,506,388

Liabilities:

  Intragovernmental:
     Accounts payable                                                        $     32,665     $ 56,253
 Total Intragovernmental                                                           32,665       56,253

      Seized currency and other monetary instruments (Note 8)                    1,691,498     824,219
      Distributions payable (Note 10)
          State and local agencies and foreign governments                         71,123      111,311
      Accounts payable                                                              7,443        7,939
      Deferred revenue from forfeited assets                                       84,300       53,744

Total Liabilities                                                                1,887,029    1,053,466

Net Position:
  Cumulative results of operations (Note 11)                                     1,555,895    1,452,922

Total Liabilities and Net Position                                            $3,442,924 $2,506,388
                The accompanying notes are an integral part of these financial statements.


                           SECTION III - FINANCIAL STATEMENTS AND NOTES                              29
                        Department of the Treasury Forfeiture Fund
                               STATEMENTS OF NET COST
                      For the years ended September 30, 2012 and 2011
                                     (Dollars in thousands)

                                                                                 2012            2011
Program:
ENFORCEMENT

  Intragovernmental:
       Seizure investigative costs and asset management                    $    62,942     $    73,300
       Other asset related contract services                                     7,290           8,565
       Data systems, training and others                                        30,255          33,253

  Total Intragovernmental                                                      100,487         115,118

  With the Public:
     National contract services seized property and other                       48,328          50,359
     Joint operations                                                           12,198          11,593

  Total with the Public                                                         60,526          61,952


Net Cost of Operations                                                    $    161,013     $ 177,070




              The accompanying notes are an integral part of these financial statements.


   30         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
                           Department of the Treasury Forfeiture Fund
                      STATEMENTS OF CHANGES IN NET POSITION
                       For the years ended September 30, 2012 and 2011
                                      (Dollars in thousands)

                                                                                  2012           2011

Net Position – Beginning of year                                            $ 1,452,922      $ 986,071
Financing Sources (Non-Exchange Revenues):
   Intragovernmental
       Investment interest income                                                 1,047          1,379
   Public
       Forfeited currency and monetary instruments                             344,789          763,378
       Sales of forfeited property net of mortgages and claims                  52,213           53,776
       Proceeds from participating with other federal agencies                 108,781           95,377
       Value of property transferred in equitable sharing                        1,600            4,675
       Payments in lieu of forfeiture, net of refunds (Note 19)                  2,914         (57,026)
       Reimbursed costs                                                          2,457            3,559
       Other                                                                 ____2,828            2,958
   Total Gross Non-Exchange Revenues                                           516,629          868,076

Less: Equitable Sharing
  Intragovernmental
      Federal                                                                   (7,020)        (27,927)
  Public
      State and local agencies                                                (107,365)        (68,373)
      Foreign countries                                                         (3,488)           (176)
      Victim restitution                                                       (46,589)        (24,261)
                                                                              (157,442)        (92,810)
   Total Equitable Sharing                                                    (164,462)       (120,737)

Total Non-Exchange Revenues, Net                                                352,167        747,339

Transfers –Out
  Intragovernmental
   Super surplus (Note 13)                                                     (78,654)      (102,464)
   Secretary’s enforcement fund (Note 14)                                       (9,527)          (954)
Total Transfers Out                                                            (88,181)      (103,418)

Total Financing Sources - Net                                                   263,986        643,921
Net Cost of Operations                                                        (161,013)      (177,070)

Net Results of Operations                                                       102,973        466,851

Net Position – End of Year                                                  $ 1,555,895     $ 1,452,922

               The accompanying notes are an integral part of these financial statements.
                         SECTION III - FINANCIAL STATEMENTS AND NOTES                               31
                            Department of the Treasury Forfeiture Fund
                          STATEMENTS OF BUDGETARY RESOURCES
                          For the years ended September 30, 2012 and 2011
                                         (Dollars in thousands)

                                                                                   2012           2011

Budgetary Resources:

   Unobligated balances- beginning of year                                  $    646,405    $ 580,785
   Recoveries of prior year unpaid obligations                                    29,747       57,464
   Unobligated balance from prior year budget authority, net                     676,152      638,249
   Budget authority                                                               (3,822)       598,570

Total Budgetary Resources                                                   $    672,330    $1,236,819

Status of Budgetary Resources:

   Obligations incurred                                                     $    527,417    $ 590,414

   Unobligated balances – apportioned                                       $    144,913    $ 646,405
   Unobligated balances – end of year                                       $    144,913    $ 646,405

Total Status of Budgetary Resources                                         $    672,330    $1,236,819


Change in Obligated Balance:
   Obligated balance, net-beginning of year                                 $     539,063   $ 745,715
   Obligations incurred                                                           527,417      590,414
   Less: Gross outlays                                                          (485,892)    (739,602)
   Less: Recoveries of prior year unpaid obligations, actual                     (29,747)     (57,464)

Obligated balance, net – end of year                                        $    550,841    $ 539,063

Budget Authority and Outlays

  Budget authority, net                                                     $     (3,822) $     598,570

  Net outlays                                                              $     485,892    $   739,602


             The accompanying notes are an integral part of these financial statements.




   32           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Note 1: Reporting Entity

The Department of the Treasury Forfeiture Fund (Treasury Forfeiture Fund or the Fund) was
established by the Treasury Forfeiture Fund Act of 1992, Public Law 102-393 (the TFF Act), and is
codified at 31 USC 9703. The Fund was created to consolidate all Treasury law enforcement bureaus
under a single forfeiture fund program administered by the Department of the Treasury (Treasury).
Treasury law enforcement bureaus fully participating in the Fund upon enactment of this legislation
were the U.S. Customs Service (Customs); the Internal Revenue Service (IRS); the United States
Secret Service (Secret Service); the Bureau of Alcohol, Tobacco and Firearms (ATF); the Financial
Crimes Enforcement Network (FinCEN); and the Federal Law Enforcement Training Center
(FLETC). FinCEN and FLETC contribute no revenue to the Fund, however in recent years,
significant amounts of Super Surplus funds have been allocated to FinCEN towards Bank Secrecy
Act (BSA) Information Technology (IT) modernization, a tool used in the fight against money
laundering and other criminal activity. The U.S. Coast Guard, formerly part of the Department of
Transportation, now part of the Department of Homeland Security (DHS), also participates in the
Fund. However, all Coast Guard seizures are treated as Customs seizures because the Coast Guard
lacks forfeiture authority.

With enactment of the Homeland Security Act of 2002 (Homeland Security Act), law enforcement
bureaus currently participating in the Fund are: the Internal Revenue Service - Criminal Investigation
(IRS - CI) of Treasury, Customs and Border Protection (CBP), Immigration and Customs
Enforcement (ICE) and the U.S. Secret Service (USSS) of DHS. The U.S. Coast Guard of DHS joins
these bureaus. The Fund continues in its capacity as a multi-Departmental Fund, representing the
interests of law enforcement components of the Departments of Treasury and Homeland Security.

The Fund is a special fund that is accounted for under Treasury symbol number 20X5697. From this
no-year account, expenses may be incurred consistent with 31 USC 9703, as amended. A portion of
these expenses, referred to as discretionary expenses, are subject to annual appropriation limitations.
Others, referred to as non-discretionary (mandatory) expenses, are limited only by the availability of
resources in the Fund. Both expense categories are limited in total by the amount of revenue in the
Fund. The Fund is managed by the Treasury's Executive Office for Asset Forfeiture (EOAF).

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The
goal of the Treasury Forfeiture Fund is to support the Treasury’s national asset forfeiture program in
a manner that results in federal law enforcement’s continued and effective use of asset forfeiture as a
high-impact law enforcement sanction to disrupt and dismantle criminal activity. Under a
Memorandum of Understanding (MOU) with Treasury, CBP acts as the executive agent for certain
operations of the Fund. Pursuant to that executive agency role, CBP’s National Finance Center (NFC)
is responsible for accounting and financial reporting for the Fund, including timely and accurate
reporting and compliance with Treasury, the Comptroller General and the Office of Management and
Budget (OMB) regulations and reporting requirements.




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                               33
Note 2: Summary of Significant Accounting Policies

Basis of Accounting and Presentation

The Fund began preparing audited financial statements in Fiscal Year 1993 as required by the Fund’s
enabling legislation 31 USC§9703(f)(2)(H), and the Chief Financial Officers Act of 1990. Beginning
with the Fiscal Year 1996 report, the Government Management Reform Act of 1994 (GMRA)
requires executive agencies, including the Treasury, to produce audited consolidated accountability
reports and related footnotes for all activities and funds.

The financial statements have been prepared from the accounting records of the Fund in conformity
with accounting principles generally accepted in the United States of America (GAAP) and specified
by OMB in OMB Circular A-136, Financial Reporting Requirements (OMB Circular A-136). GAAP
for federal entities is prescribed by the Federal Accounting Standards Advisory Board (FASAB),
which is designated the official accounting standards setting body of the Federal Government by the
American Institute of Certified Public Accountants. The statement of budgetary resources for fiscal
year 2011 has been reclassified to make it comparable to the fiscal year 2012 presentation.

Allowable Fund Expenses

The majority of the revenue recorded by the Fund is utilized for operating expenses or distributed to
state and local law enforcement agencies, other federal agencies, and foreign governments, in
accordance with the various laws and policies governing the operations and activities of the Fund.
Under the TFF Act, the Fund is authorized to pay certain expenses using discretionary or mandatory
funding authorities of the Fund.

Discretionary authorities include but may not be limited to: the payment of expenses for the purchase
of awards for information or assistance leading to a civil or criminal forfeiture involving any law
enforcement bureau participating in the Fund; purchase of evidence or information that meet the
criteria set out in 31 USC 9703(a)(2)(B); payment for equipment for vessels, vehicles, or aircraft
available for official use as described by 31 USC 9703(a)(2)(D) and (F); reimbursement of private
persons for expenses incurred while cooperating with a Treasury law enforcement organization in
investigations; publication of the availability of certain awards; and payment for training foreign law
enforcement personnel with respect to seizure or forfeiture activities of the Fund. Discretionary
expenses are subject to an annual, definite Congressional appropriation from revenue in the Fund.

Expenses from the mandatory authorities of the Fund include but are not limited to: all proper
expenses of the seizure, including investigative costs and purchases of evidence and information
leading to seizure, holding cost, security costs, etc., awards of compensation to informers under
section 619 of the Tariff Act (19 USC 1619); satisfaction of liens against the forfeited property, and
claims of parties with interest in forfeited property; expenses incurred by state and local law
enforcement agencies in joint law enforcement operations with law enforcement agencies
participating in the Fund; and equitable sharing payments made to state and local law enforcement
agencies in recognition of their efforts in a Fund seizure leading to forfeiture. These mandatory
expenses are paid pursuant to the permanent indefinite authorities of the Fund; are only limited by
revenue in the Fund each year and do not require additional Congressional action for expenditure.


   34          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
The Fund's expenses are either paid on a reimbursement basis or paid directly on behalf of a
participating bureau. Reimbursable expenses are incurred by the respective bureaus participating in
the Fund against their appropriation and then submitted to the Fund for reimbursement. The bureaus
are reimbursed through Inter-Agency Transfers (SF-1081) or Intra-governmental Payments and
Collection (IPAC) System. Certain expenses such as equitable sharing, liens, claims and state and
local joint operations costs are paid directly from the Fund.

Further, the Fund is a component unit of the Treasury with participating bureaus in the DHS. As
such, employees of both Departments may perform certain operational and administrative tasks
related to the Fund. Payroll costs of employees directly involved in the security and maintenance of
forfeited property are also recorded as expenses in the financial statements of the Fund (included in
the line item “seizure investigative costs and asset management” in the statement of net cost.)

Revenue and Expense Recognition

Revenue from the forfeiture of property is deferred until the property is sold or transferred to a state,
local or federal agency. Revenue is not recorded if the forfeited property is ultimately destroyed or
cannot be legally sold.

Revenue from currency is recognized upon forfeiture. Payments in lieu of forfeiture (mitigated
seizures) are recognized as revenue when the payment is received. Revenue received from
participating with certain other federal agencies is recognized when the payment is received.
Operating costs are recorded as expenses and related liabilities when goods are received or services
are performed. Certain probable equitable sharing liabilities existing at year end are accrued based
on estimates.

As provided for in the TFF Act, the Fund invests seized and forfeited currency that is not needed for
current operations. Treasury’s Bureau of Public Debt invests the funds in obligations of, or
guaranteed by, the United States Government. Interest is reported to the Fund and recorded monthly
as revenue in the general ledger.

Earmarked Funds

Earmarked funds are financed by specifically identified revenues, often supplemented by other
financing sources, which remain available over time. These specifically identified revenues and other
financing sources are required by statute to be used for designated activities, benefits, or purposes,
and must be accounted for separately from the Government’s general revenues. In accordance with
SFFAS 27, Earmarked Funds, all of the TFF’s revenue meets these criteria and constitutes an
earmarked fund.

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash collected from earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general government purposes. Treasury securities are issued to the
TFF as evidence of its receipts. Treasury securities are an asset to the TFF and a liability to the U.S.
Treasury. Because the TFF and U.S. Treasury are both parts of the government, these assets and
liabilities offset each other from the standpoint of the government as a whole. For this reason, they
do not represent an asset or a liability in the U.S. Government-wide financial statements.


                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                35
Treasury securities provide the TFF with authority to draw upon the U.S. Treasury to make future
benefit payments or other expenditures. When the TFF requires redemption of these securities to
make expenditures, the government finances those expenditures out of accumulated cash balances, by
raising taxes or other receipts, by borrowing from the public or repaying less debt or by curtailing
other expenditures. This is the same way that the government finances all other expenditures.

Equitable Sharing (Assets Distributed)

Forfeited property, currency, or proceeds from the sales of forfeited property may be shared with
federal, state and local law enforcement agencies or foreign governments, which provided direct or
indirect assistance in the related seizure. In addition, the Fund may transfer forfeited property to
other federal agencies, which would benefit from the use of the item. A class of asset distribution
was established for victim restitution in 1995. These distributions include property and cash returned
to victims of fraud and other illegal activity. Upon approval by Fund management to share or
transfer the assets, both revenue from distributed forfeited assets and distributions are recognized for
the net realizable value of the asset to be shared or transferred, thereby resulting in no gain or loss
recognized. Revenue and /or expenses are recognized for property and currency, which are
distributed to or shared with non-federal agencies, per SFFAS No. 7, Accounting for Revenue and
Other Financing Sources.

Entity Assets

Entity assets are used to conduct the operations and activities of the Fund. Entity assets comprise
intragovernmental and non-intragovernmental assets. Intragovernmental balances arise from
transactions among federal agencies. These assets are claims of a federal entity against another
federal entity. Entity assets consist of cash or other assets, which could be converted into cash to
meet the Fund's current or future operational needs. Such other assets include investments of forfeited
balances, accrued interest on seized balances, receivables, and forfeited property, which are held for
sale or to be distributed.

•   Fund Balance with Treasury – This represents amounts on deposit with Treasury.

•   Investments and Related Interest Receivable – This includes forfeited cash held by the Fund
    and seized currency held in the Customs Suspense Account that had been invested in short term
    U.S. Government Securities.

•   Receivables – The values reported for other receivables are primarily funds due from the national
    seized property contractor for properties sold; the proceeds of which have not yet been deposited
    into the Fund. No allowance has been made for uncollectible amounts as the accounts recorded as
    a receivable at year end were considered to be fully collectible as of September 30, 2012 and
    2011.

•   Advances – This primarily represents cash transfers to Treasury or law enforcement bureaus
    participating in the Fund for orders to be delivered.

•   Cash and Other Monetary Assets – This includes forfeited currency on hand not yet deposited
    and forfeited currency held as evidence.

    36          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
•   Forfeited Property and Currency – Forfeited property and currency is recorded in the
    respective seized property and forfeited asset tracking systems at the estimated fair value at the
    time of seizure. However, based on historical sales experiences for the year, properties are
    adjusted to reflect the market value at the end of the fiscal year for financial statement reporting
    purposes. Direct and indirect holding costs are not capitalized for individual forfeited assets.
    Forfeited currency not deposited into the Fund is included as part of Entity Assets - Cash and
    Other Monetary Assets.

Further, mortgages and claims on forfeited assets are recognized as a valuation allowance and a
reduction of deferred revenue from forfeited assets when the asset is forfeited. The allowance
includes mortgages and claims on forfeited property held for sale and a minimal amount of claims on
forfeited property previously sold. Mortgages and claims expenses are recognized when the related
asset is sold and is reflected as a reduction of sales of forfeited property.

Additionally, SFFAS No. 3, Accounting for Inventory and Related Property, requires certain
additional disclosures in the notes to the financial statements, including an analysis of changes in
seized and forfeited property and currency, for both carrying value and quantities, from that on hand
at the beginning of the year to that on hand at the end of the year. These analyses are disclosed in
Notes 7 and 8.

Non-entity Assets

Non-entity assets held by the Fund are not available for use by the Fund. Non-entity assets comprise
intragovernmental and other assets. Intragovernmental balances arise from transactions among
federal agencies. These assets are claims of a federal entity against another federal entity. Non-
entity assets are not considered as financing sources (revenue) available to offset operating expenses,
therefore, a corresponding liability is recorded and presented as governmental liabilities in the
balance sheet to reflect the custodial/fiduciary nature of these activities.

•   Seized Currency and Property – Seized Currency is defined as cash or monetary instruments
    that are readily convertible to cash on a dollar for dollar basis. SFFAS No. 3 requires that seized
    monetary instruments (cash and cash equivalents) be recognized as an asset in the financial
    statements and a liability be established in an amount equal to the seized asset value due to: (i) the
    fungible nature of monetary instruments, (ii) the high level of control that is necessary over these
    assets; and (iii) the possibility that these monies may be returned to their owner in lieu of
    forfeiture.

    Seized property is recorded at its appraised value at the time of seizure. The value is determined
    by the seizing entity and is usually based on a market analysis such as a third party appraisal,
    standard property value publications or bank statements. Seized property is not recognized as an
    asset in the financial statements, as transfer of ownership to the government has not occurred as
    of September 30. Accordingly, seized property other than monetary instruments is disclosed in
    the footnotes in accordance with SFFAS No. 3.

•   Investments and Related Interest Receivable – This balance includes seized cash on deposit in
    the Fund’s suspense account held by Treasury, which has been invested in short term U.S.
    Government Securities.

                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                 37
•   Cash and Other Monetary Assets – This balance represents the aggregate amount of the Fund’s
    seized currency on deposit in the Fund’s suspense account held by Treasury, seized cash on
    deposit held with other financial institutions and, cash on hand in vaults held at field office
    locations.

Liabilities Covered by Budgetary Resources

Liabilities covered by budgetary resources represent liabilities incurred, which are covered by
available budgetary resources. The components of such liabilities for the Fund are as follows:

•   Distributions Payable – Distributions payable to federal and non-federal agencies is primarily
    related to equitable sharing payments and payments to be made by the Fund to the victims of
    fraud.

•   Accounts Payable – Amounts reported in this category include accrued expenses authorized by
    the TFF Act (See "Allowable Fund Expenses") for which payment was pending at year end.

•   Seized Currency – Amounts reported in this category represent the value of seized currency that
    is held by the Fund which equals the amount of seized currency reported as an asset.

•   Deferred Revenue from Forfeited Assets – At year end, the Fund held forfeited assets, which
    had not yet been converted into cash through a sale. The amount reported here represents the
    value of these assets, net of mortgages and claims.

Liabilities Not Covered by Budgetary Resources

The Fund does not currently have liabilities not covered by available budgetary resources.

Net Position

The components of net position are classified as follows:
• Retained Capital – There is no cap on amounts that the Fund can carry forward into Fiscal Year
   2013. The cap was removed by the Fiscal Year 1997 Omnibus Appropriations Act (PL 104-208).

•   Unliquidated Obligations – This category represents the amount of undelivered purchase orders,
    contracts and equitable sharing requests which have been obligated with current budget resources
    or delivered purchase orders and contracts that have not been invoiced. An expense and liability
    are recognized and the corresponding obligations are reduced as goods are received or services
    are performed. A portion of the equitable sharing requests that were in final stages of approval
    are recognized as liabilities at year end. Prior experience with the nature of this account indicated
    that a substantial portion of these requests were certain liabilities at year end. (See also
    Distributions Payable at Note 10).

•   Net Results of Operations – This category represents the net difference, for the activity during
    the year, between: (i) financing sources including transfers, and revenues; and (ii) expenses.



    38          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Note 3: Investments and Related Interest Receivable

All investments are intragovernmental short-term (35 days or less) non-marketable par value federal
debt securities issued by, and purchased through Treasury's Bureau of the Public Debt. Investments
are always purchased at a discount and are reported at acquisition cost, net of discount. The discount
is amortized into interest income over the term of the investment. The investments are always held to
maturity. They are made from cash in the Fund and from seized currency held in the Customs
Suspense Account. The Customs Suspense Account became the depository for seized cash for the
Fund following enactment of the TFF Act.

The following schedule presents the investments on hand as of September 30, 2012 and 2011,
respectively (dollars in thousands):

Entity Assets

Description.                                                 Cost     Unamortized        Investment,
                                                                         Discount               Net
September 30, 2012

Treasury Forfeiture Fund -

35 days 0.0450% U.S. Treasury Bills                    $1,631,299             ($71)       $1,631,228

Interest Receivable                                                                                39

Total Investment, Net, and Interest Receivable                                            $1,631,267

Fair Market Value                                                                         $1,631,234

September 30, 2011

Treasury Forfeiture Fund -

28 days 0.0000% U.S. Treasury Bills                    $1,584,974               ($0)      $1,584,974

Interest Receivable                                                                                 0

Total Investment, Net, and Interest Receivable                                            $1,584,974

Fair Market Value                                                                         $1,584,959




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                              39
Non-entity Assets

Description.                                           Cost      Unamortized         Investment,
                                                                    Discount                Net
September 30, 2012

Treasury Forfeiture Fund –
Seized Currency Suspense Account


35 days 0.0450% U.S. Treasury Bills               $1,505,073               ($66)      $1,505,007

Fair Market Value                                                                     $1,505,013

September 30, 2011

Treasury Forfeiture Fund –
Seized Currency Suspense Account


28 days 0.0000% U.S. Treasury Bills                $724,301                 ($0)      $ 724,301

Fair Market Value                                                                     $ 724,294




Note 4: Analysis of Non-Entity Assets

The following schedule presents the non-entity assets as of September 30, 2012 and 2011,
respectively, (dollars in thousands):

                                                               2012                2011
    Seized currency:
        Intragovernmental Investments (Note 3)          $      1,505,007       $    724,301
        Cash and other monetary assets (Note 5)                  186,491             99,918
    Total Non-Entity Assets                                    1,691,498            824,219
    Total Entity Assets                                        1,751,426           1,682,169
    Total Assets                                         $     3,442,924      $    2,506,388




   40          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Note 5: Cash and Other Monetary Assets

Entity Assets

Cash and Other Monetary Assets held on hand included forfeited currency not yet deposited, as well
as forfeited currency held as evidence, amounting to $18.6 million and $19.8 million as of September
30, 2012 and 2011, respectively.

Non-Entity Assets
Cash and Other Monetary Assets included seized currency not yet deposited, as well as deposited
seized currency which is not invested in order to pay remissions, amounted to $186.5 million and
$99.9 million as of September 30, 2012 and 2011, respectively.

Note 6: Forfeited Property/Deferred Revenue

The following summarizes the components of forfeited property (net), as of September 30, 2012 and
2011, respectively, (dollars in thousands):

                                                                         2012              2011
 Held for Sale                                                       $    86,191       $     59,497
 To be shared with federal, state or local, or foreign government          1,157              1,517
   Total forfeited property (Note 7)                                      87,348             61,014
 Less: Allowance for liens and claims                                     (3,048)            (7,270)
 Total forfeited property, net                                       $    84,300       $     53,744




                          SECTION III - FINANCIAL STATEMENTS AND NOTES                            41
Note 7: FY 2012 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and currency balances from October 1, 2011 to September 30, 2012.
(Dollar value is in thousands.)

                   10/1/11 Financial                                10/1/11
                   Statement Balance        Adjustments          Carrying Value           Forfeitures            Deposits/Sales         Disposals/Transfers
                      Value     No.         Value     No.          Value     No.          Value    No.             Value     No.            Value      No.

Currency           $19,629            -        $-           -    $19,629           -   $307,400           -   $(337,273)            -       $     -          -
Other Monetary
Instruments            219            -         -           -        219           -          9           -        (209)            -           (2)          -
Subtotal            19,848            -         -           -     19,848           -    307,409           -    (337,482)            -           (2)          -

Real Property       40,967       251       36,742           -     77,709      251        16,735          93     (29,073)     (118)          (834)         (2)

General Property    12,107    12,358       32,021           -     44,128    12,358       36,829    27,824       (32,516)    (4,034)       (1,907)     (3,683)
Vessels                529        46          453           -        982        46        1,988       160        (1,327)       (57)         (182)         (9)
Aircraft               335         6          228           -        563         6        2,462        16        (1,976)       (13)         (514)         (1)
Vehicles             7,076     2,636        4,981           -     12,057     2,636       36,971     9,467       (28,105)    (8,423)       (7,921)     (1,094)
Subtotal            61,014    15,297       74,425           -    135,439    15,297       94,985    37,560       (92,997)   (12,645)      (11,358)     (4,789)
Grand Total        $80,862    15,297      $74,425           -   $155,287    15,297     $402,394    37,560     $(430,479)   (12,645)     $(11,360)     (4,789)

                                                                     Other                                                              Fair Market Value        9/30/12 Financial
                   Victim Restitution        Destroyed            Adjustments            Value Change         2012 Carrying Value          Adjustment            Statement Balance
                     Value     No.         Value         No.       Value      No.         Value         No.       Value           No.      Value         No.        Value        No.
Currency                $-            -       $-           -     $29,454        -        $(769)           -     $18,441             -         $-           -      $18,441          -
Other Monetary
Instruments               -                                 -
                                      -                              205           -       (17)           -         205             -             -          -         205           -
Subtotal                  -           -         -           -     29,659           -      (786)           -      18,646             -             -          -      18,646           -

Real Property             -           -         -           -     10,455        46          445           -      75,437           270     (8,930)            -      66,507       270

General Property          -           -      (73)   (19,758)      (9,876)      977       (1,320)          -       35,265     13,684      (24,117)            -     11,148     13,684
Vessels                   -           -         -       (82)         183           8        (18)          -        1,626           66       (852)            -        774         66
Aircraft                  -           -         -           -        269           1           -          -         804             9       (404)            -        400          9
Vehicles                  -           -         -      (388)       2,044       116         (594)          -       14,452      2,314       (5,933)            -      8,519      2,314
Subtotal                  -           -      (73)   (20,228)       3,075     1,148       (1,487)          -      127,584     16,343      (40,236)            -     87,348     16,343
Grand Total              $-           -     $(73)   (20,228)     $32,734     1,148      $(2,273)          -     $146,230     16,343     $(40,236)            -   $105,994     16,343


                                42           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Note 7 (Cont’d): FY 2011 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and currency balances from October 1, 2010 to September 30, 2011.
(Dollar value is in thousands.)

                   10/1/10 Financial                                 10/1/10
                   Statement Balance        Adjustments           Carrying Value          Forfeitures            Deposits/Sales         Disposals/Transfers
                      Value     No.         Value     No.          Value     No.          Value   No.              Value     No.            Value     No.

Currency           $12,559            -        $-           -    $12,559           -   $731,485           -   $(749,316)            -     $(243)            -
Other Monetary
Instruments          1,070            -         -           -      1,070           -         95           -        (164)            -           -           -
Subtotal            13,629            -         -           -     13,629           -    731,580           -    (749,480)            -       (243)           -

Real Property       48,953       223       24,090           -     73,043      223        37,517         133     (35,442)     (120)        (5,946)      (14)

General Property    10,661     9,336        9,234           -     19,895    9,336        57,195   26,273        (30,969)    (3,128)       (3,900)   (2,004)
Vessels                558        53          520           -      1,078       53         3,125      179         (2,048)       (75)       (1,014)      (19)
Aircraft               149         3          164           -        313        3           877       11           (727)        (8)             -         -
Vehicles             6,215     2,199        5,005           -     11,220    2,199        42,399   10,247        (33,308)    (8,804)       (9,614)   (1,244)
Subtotal            66,536    11,814       39,013           -    105,549   11,814       141,113   36,843       (102,494)   (12,135)      (20,474)   (3,281)
Grand Total        $80,165    11,814      $39,013           -   $119,178   11,814      $872,693   36,843      $(851,974)   (12,135)     $(20,717)   (3,281)

                                                                      Other                                                             Fair Market Value       9/30/11 Financial
                   Victim Restitution        Destroyed             Adjustments           Value Change         2011 Carrying Value          Adjustment           Statement Balance
                     Value     No.         Value         No.       Value      No.        Value          No.       Value           No.      Value       No.         Value        No.
Currency                $-            -       $-           -     $25,118        -         $26             -     $19,629             -         $-         -       $19,629          -
Other Monetary
Instruments               -                                 -
                                      -                             (12)           -      (770)           -         219             -           -           -         219            -
Subtotal                  -           -         -           -     25,106           -      (744)           -      19,848             -           -           -      19,848            -

Real Property             -           -         -           -      8,252         29        285            -      77,709           251    (36,742)           -      40,967       251

General Property          -           -     (195)   (18,747)       5,038      628       (2,936)           -      44,128     12,358       (32,021)           -     12,107     12,358
Vessels                   -           -         -      (103)        (36)       11         (123)           -         982         46          (453)           -        529         46
Aircraft                  -           -         -        (1)         100        1             -           -         563          6          (228)           -        335          6
Vehicles                  -           -         -       (70)       1,591      308         (231)           -      12,057      2,636        (4,981)           -      7,076      2,636
Subtotal                  -           -     (195)   (18,921)      14,945      977       (3,005)           -     135,439     15,297       (74,425)           -     61,014     15,297
Grand Total              $-           -    $(195)   (18,921)     $40,051      977      $(3,749)           -    $155,287     15,297      $(74,425)           -    $80,862     15,297




                                                            SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                            43
Note 8: FY 2012 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility that
these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property other
than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)


                    9/30/11 Financial                                                                                                                      9/30/12 Financial
                    Statement Balance            Seizures             Remissions               Forfeitures            Adjustments        Value Changes     Statement Balance
                       Value         No.         Value      No.       Value        No.        Value          No.      Value       No.      Value    No.        Value     No.
Currency            $804,427           -    $1,236,049        -    $(80,924)         -    $(307,400)           -    $18,027         -    $ (833)      -   $1,669,346       -

Other Monetary                                                -
Instruments           19,792            -        1,804                  (99)          -          (9)            -     1,366          -      (702)     -       22,152           -
Subtotal             824,219            -    1,237,853        -     (81,023)          -    (307,409)            -    19,393          -    (1,535)     -    1,691,498           -

Real Property        206,061         546       52,622       198      (9,267)       (66)     (16,735)         (93)   (24,359)      (14)    (1,839)     -     206,483      571
General Property
                      225,508   24,408         156,842   39,104     (55,430)   (4,533)      (36,829)   (27,824)       13,948   (5,547)    (2,075)     -      301,964   25,608
Vessels                 5,149      138           3,814      228        (846)      (28)       (1,988)      (160)          513      (12)      (136)     -        6,506      166
Aircraft                6,121       29           9,910       23      (2,309)      (13)       (2,462)       (16)        (289)       (2)      (236)     -       10,735       21
Vehicles               51,035    5,779          82,057   13,302     (45,922)   (4,800)      (36,971)    (9,467)      (2,455)     (478)    (2,284)     -       45,460    4,336
Subtotal              493,874   30,900         305,245   52,855    (113,774)   (9,440)      (94,985)   (37,560)     (12,642)   (6,053)    (6,570)     -      571,148   30,702
Grand Total        $1,318,093   30,900      $1,543,098   52,855   $(194,797)   (9,440)    $(402,394)   (37,560)       $6,751   (6,053)   $(8,105)     -   $2,262,646   30,702




                                44            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Note 8 (Cont’d): FY 2011 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility that
these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property other
than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)

                  9/30/10 Financial                                                                                                                          9/30/11 Financial
                  Statement Balance            Seizures             Remissions               Forfeitures              Adjustments         Value Changes      Statement Balance
                     Value       No.          Value       No.       Value        No.        Value           No.       Value         No.      Value    No.       Value      No.
Currency          $776,100         -       $881,144         -   $(108,526)         -    $(731,485)            -    $(13,380)          -      $ 574      -    $804,427        -

Other Monetary                                              -
Instruments         13,337            -       8,699                    (3)          -         (95)             -     (2,145)          -         (1)     -      19,792            -
Subtotal           789,437            -     889,843         -    (108,529)          -    (731,580)             -    (15,525)          -        573      -     824,219            -

Real Property      210,589       505         63,124       224     (10,897)       (58)     (37,517)         (133)     (4,538)         8     (14,700)     -     206,061      546

General                                                                                                                                                 -
Property           276,883    22,377         87,196    37,101     (58,075)   (4,129)      (57,195)   (26,273)        (8,300)   (4,668)     (15,001)           225,508    24,408
Vessels               6,772      167           3,271      206      (1,665)      (37)       (3,125)      (179)          (261)      (19)          157     -        5,149      138
Aircraft             16,754       29           3,695       23     (13,262)      (10)         (877)       (11)          (103)       (2)         (86)     -        6,121       29
Vehicles             46,525    5,758          92,004   14,973     (42,263)   (4,338)      (42,399)   (10,247)        (2,040)     (367)        (792)     -       51,035    5,779
Subtotal            557,523   28,836         249,290   52,527    (126,162)   (8,572)     (141,113)   (36,843)       (15,242)   (5,048)     (30,422)     -      493,874   30,900
Grand Total      $1,346,960   28,836      $1,139,133   52,527   $(234,691)   (8,572)    $(872,693)   (36,843)      $(30,767)   (5,048)    $(29,849)     -   $1,318,093   30,900




                                                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                      45
Note 9: Capitalized Software

During fiscal year 2012, the Fund spent $660 thousand developing Automated Obligation &
Equitable Sharing Management System to be used to process requests to transfer funds from the
Suspense Account to the Fund, obligate assets for equitable sharing and issue equitable sharing
payments, along with documenting the disposition of forfeited assets. The system is expected to be
operational in FY 2013.

Note 10: Distributions Payable (state and local agencies and foreign governments)

Distributions Payable (state and local agencies and foreign governments) amounted to $71.1 million
and $111.3 million as of September 30, 2012 and 2011, respectively. Fund management recognizes
as a liability a portion (based on the average of historical pay-out percentage) of the equitable sharing
requests, that were approved or in final stages of approval on September 30, 2012 and 2011,
respectively. Prior experience with the nature of this account indicated that a substantial portion of
these requests were certain to be paid out by the Fund during the following fiscal year.

Note 11: Net Position

Cumulative Results

The following summarizes components of cumulative results as of and for the years ended September
30, 2012 and 2011, respectively, (dollars in thousands):

                                                             2012               2011
                 Retained Capital                         $ 1,013,826     $    622,905
                 Unliquidated Obligations                     439,096          363,166
                 Net Results of Operations                    102,973          466,851
                                                          $ 1,555,895     $ 1,452,922

Unliquidated Obligations

The following summarizes the components of unliquidated obligations as of September 30, 2012 and
2011 respectively, (dollars in thousands):
                                                        2012             2011
                 Equitable Sharing                  $ 161,416        $ 150,392
                 Mandatory                             277,680           212,774
                                                    $ 439,096        $ 363,166

Note 12: Related Party Transactions

The Fund reimbursed agencies for the purchase of certain capital assets. These assets are reported by
the participating agencies in their financial statements.




    46          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Note 13: Super Surplus

31 USC 9703 (g)(4)(B) allows for the expenditure, without fiscal year limitation, after the reservation
of amounts needed to continue operations of the Fund. This “Super Surplus” balance may be used
for law enforcement activities of any federal agency.

Amounts distributed to other federal agencies for law enforcement activities under “Super Surplus”
requirements amounts to $78.7 million and $102.5 million in fiscal years 2012 and 2011,
respectively.

Note 14: Secretary’s Enforcement Fund

31 USC 9703(b)(5) is another category of permanent indefinite authority. These funds are available
to the Secretary, without further action by Congress and without fiscal year limitation, for federal law
enforcement purposes of Treasury law enforcement organizations. The source of Section 9703(b)(5)
funds is equitable sharing payments received from the Department of Justice and the U.S. Postal
Service (USPS) representing Treasury's share of forfeiture proceeds from Justice and USPS cases.

Amounts distributed for federal law enforcement purposes of Treasury law enforcement
organizations amounted to $9.5 million and $1 million in fiscal years 2012 and 2011, respectively.

Note 15: Commitments and Contingencies

COMMITMENTS

A portion of the equitable sharing requests that were in final stages of approval are recognized as
liabilities as of September 30 (See also Note 10, Distributions Payable).

In addition to the amounts estimated above, there are other amounts, which may ultimately be shared,
that are not identified at this time.

CONTINGENCIES

In the opinion of the Fund’s management and legal counsel, there are no pending or threatened
litigation claims for which the amount of potential loss, individually, or in aggregate, will have a
material adverse effect on the Fund’s financial statements.

Note 16: Disclosures Related to the Statements of Net Cost

Gross costs and earned revenue related to Law Enforcement Programs administered by the Fund are
presented in Treasury’s budget functional classification (in thousands) as set out below:

                                                         2012            2011
       Gross Costs                                     $ 161,013       $ 177,070
       Earned Revenues                                            -               -

       Net Costs                                       $ 161,013       $ 177,070

                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                47
The Fund falls under the Treasury’s budget functional classification related to Administration of
Justice.

Note 17: Disclosures Related to the Statements of Budgetary Resources

The Fund’s net amount of budgetary resources obligated at the end of fiscal years 2012 and 2011
were $550.8 million and $539.1 million, respectively. This amount is fully covered by cash on hand
in the Fund and Entity Investments. The Fund does not have borrowing or contract authority and,
therefore, has no repayment requirements, financing sources for repayment, or other terms of
borrowing authority. There are no legal arrangements, outside of normal government wide
restrictions, specifically affecting the Fund’s use of unobligated balances of budget authority.

Adjustments to budgetary resources available at the beginning of fiscal years 2012 and 2011 consist
of the following (in thousands):

                                                                 2012            2011
             Recoveries of Prior Year Unpaid Obligations $       29,747      $    57,464

Recoveries of prior year obligations are the difference between amounts that Fund management
obligated (including equitable sharing) and amounts subsequently approved for payment against
those obligations.

Note 18: Dedicated Collections

The Fund is classified as a special fund. All its activities are reported as dedicated collections held
for later use.

Note 19: Payments in Lieu of Forfeiture, Net of Refunds

The following summarizes Payments in Lieu of Forfeiture, Net of Refunds as of September 30, 2012
and 2011, respectively, (dollars in thousands):

                                                             2012            2011
                 Payments in Lieu of Forfeiture          $      9,159      $ 12,653
                 Refunds                                       (6,245)      (69,679)
                 Total                                   $     2,914       ($ 57,026)




   48          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Note 20: Reconciliation of Net Cost of Operations (Proprietary) to Budget

The reconciliation of Net Cost of Operations to Budget demonstrates the relationship between the
Fund’s proprietary (net cost of operations) and budgetary accounting (net obligations) information.

                                                                          2012           2011
  Resources Used to Finance Activities:
    Budgetary resources obligated
        Obligations incurred                                         $   527,417 $      590,414
        Less: Spending authority from offsetting
           Collections and recoveries                                    (29,747)       (57,464)
        Net Obligations                                                  497,670        532,950
    Other resources
        Transfers – out                                                  (88,181)      (103,418)
  Total Resources Used to Finance Activities                             409,489        429,532

  Resources Used to Finance Items not Part of the Net
   Cost of Operations
         Change in budgetary resources obligated for goods,
          services and benefits ordered but not yet provided              (74,992)      (57,251)
         Other resources or adjustments to net obligated
          resources that do not affect net cost of operations
            Mortgages and claims                                           (2,777)       (4,795)
            Refunds                                                        (6,245)      (69,679)
            Equitable Sharing (federal, state/local and foreign)         (117,873)      (96,476)
            Victim restitution                                            (46,589)      (24,261)
  Total Resources Used to Finance Items not Part of the Net
   Cost of Operations                                                    (248,476)     (252,462)
  Total Resources Used to Finance the Net Cost of Operations              161,013       177,070
  Net Cost of Operations                                             $   161,013 $      177,070




                        SECTION III - FINANCIAL STATEMENTS AND NOTES                              49
THIS PAGE INTENTIONALLY LEFT BLANK
           SECTION IV

REQUIRED SUPPLEMENTAL INFORMATION

           (UNAUDITED)
THIS PAGE INTENTIONALLY LEFT BLANK
Intragovernmental Amounts – Assets (Dollars in thousands)
                                                     2012                                                     2011
                               Fund                                                 Fund
                              Balance         Accounts                             Balance             Accounts
                                with         Receivable/                             with             Receivable/
     Partner Agency           Treasury        Advances          Investments        Treasury            Advances           Investments
 Treasury                    $    14,526 -   $              -   $          -      $        23,094     $              -    $          -
 Departmental Offices                  -                40                 -                  -                     79               -
 Bureau of Public Debt                 -                    -       3,136,274                  -                     -        2,309,275

 Totals                      _$ 14,526       $          40      $ 3,136,274       $        23,094     $             79    $ 2,309,275

Intragovernmental Amounts – Liabilities (Dollars in thousands)

                                                                            2012                      2011
                                                                           Accounts                 Accounts
                    Partner Agency                                         Payable                  Payable
                    Department of Justice                              $         5,440         $                -

                    Departmental Offices                                         1,305                    6,574

                    Fincen                                                       2,527                    6,340

                    Tax and Trade                                                     68                       83

                    Treasury Office of the Inspector General                          14                        -

                    Internal Revenue Service                                    23,311                 43,256
                    Totals                                             $        32,665        $        56,253

Intragovernmental Amounts – Revenues and Costs (Dollars in thousands)

                                                     2012                                                     2011

                              Cost to Generate           Costs to Generate         Cost to Generate                  Costs to Generate
                                 Exchange                 Non-Exchange                Exchange                        Non-Exchange
                             Intragovernmental          Intragovernmental         Intragovernmental                 Intragovernmental
     Budget Functions             Revenue                    Revenue                   Revenue                           Revenue


Administration of Justice     $                  -      $             100,487     $                       -         $            115,118




50           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
Intragovernmental Amounts – Non-exchange Revenue (Dollars in thousands):

                                                      2012                                2011
             Partner Agency                  In                  Out             In                  Out


 Department of Justice (Including CIA)   $        -          $     2,267     $        -          $         610
 Department of Homeland Security                  -               43,524              -               58,529
 Department of Treasury                           -                1,266              -                    284
 Internal Revenue Service                         -               28,818              -               30,131
 Financial Crimes Enforcement Network             -               11,509              -               13,633
 Tax and Trade                                    -                    91             -                    231
 Department of Defense                            -                    206            -                      -
 Department of Commerce                           -                    500            -                      -
   Totals                                $        -          $    88,181     $        -          $   103,418




                  SECTION IV – REQUIRED SUPPLMENTAL INFORMATION (UNAUDITED)                                  51
           SECTION V

OTHER ACCOMPANYING INFORMATION

          (UNAUDITED)
                                          TREASURY FORFEITURE FUND
                              Equitable Sharing Summarized by State and U.S. Territories
                                        For the Year Ended September 30, 2012
                                                 (Dollars in Thousands)
                                                      (Unaudited)

     State/U.S. Territories                                    Currency Value              Property Value

     Alabama                                                      $         199             $         17
     Alaska                                                                  68                       73
     Arizona                                                              2,445                        9
     Arkansas                                                               525                        7
     California                                                          17,069                      195
     Colorado                                                               190                      453
     Connecticut                                                             64                        3
     D.C. Washington                                                         83                         -
     Delaware                                                                84                         -
     Florida                                                              8,296                       73
     Georgia                                                              5,238                       41
     Guam                                                                   655                         -
     Hawaii                                                                  12                         -
     Idaho                                                                   34                      118
     Illinois                                                             3,244                        1
     Indiana                                                              1,167                      160
     Iowa                                                                 1,220                         -
     Kansas                                                                 356                        1
     Kentucky                                                               837                        9
     Louisiana                                                              188                         -
     Maine                                                                   44                        3
     Maryland                                                             2,876                         -
     Massachusetts                                                          832                       50
     Michigan                                                               402                       49
     Minnesota                                                               74                        7
     Mississippi                                                            217                         -
     Missouri                                                               729                       19
     Montana                                                                125                        4
     Nebraska                                                             1,548                         -
     Nevada                                                               3,340                       52
     New Jersey                                                           3,843                         -
     New Hampshire                                                           14                       50
     New Mexico                                                             432                         -
     New York                                                            27,886                      551
     North Carolina                                                       4,094                       14
     North Dakota                                                              -                       2
     Ohio                                                                 1,575                       98
     Oklahoma                                                             1,000                         -
     Oregon                                                                 709                       21
     Pennsylvania                                                         1,136                        2
     Puerto Rico                                                          1,200                         -
     Rhode Island                                                            89                         -
     South Carolina                                                       3,574                       44
     South Dakota                                                              -                        -
     Tennessee                                                              168                       12
     Texas                                                               34,854                      339
     Utah                                                                    88                         -
     Subtotal carried forward                                         $ 132,823                   $2,477


52                TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
                                          TREASURY FORFEITURE FUND
                              Equitable Sharing Summarized by State and U.S. Territories
                                        For the Year Ended September 30, 2012
                                                (Dollars in Thousands)
                                                     (Unaudited)

     State/U.S. Territories                                    Currency Value                  Property Value

     Subtotal brought forward                                       $132,823                          $2,477
     Vermont                                                              33                               -
     Virgin Islands                                                        7                               -
     Virginia                                                            623                               5
     Washington                                                        1,332                               8
     West Virginia                                                         -                               -
     Wisconsin                                                           319                               -
     Wyoming                                                               -                               -

              Totals                                                $135,137                          $2,490



Summarized above are the currency and property values of assets forfeited and shared with state and local
agencies and U.S. Territories participating in the seizure. This supplemental schedule is not a required part of
the financial statement of the Department of the Treasury Forfeiture Fund. Information presented on this
schedule represents assets physically transferred during the year and, therefore, does not agree with total assets
shared with state and local agencies in the financial statements. In addition, the above numbers do not include
the adjustment to present property distributed at net realizable value.




                          SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                 53
                                TREASURY FORFEITURE FUND
              Uncontested Seizures of Currency and Monetary Instruments Valued Over
             $100 Thousand Taking More Than 120 Days from Seizure to Deposit in Fund
                              For the Year Ended September 30, 2012
                                       (Dollars in Thousands)



31 U.S.C. 9703(f)(2)(E) requires the Secretary of the Treasury to report annually to Congress
uncontested seizures of currency or proceeds of monetary instruments over $100 thousand which were
not deposited in the Department of the Treasury Forfeiture Fund within 120 days of the seizure date.
There were 71 administrative seizures over $100 thousand over 120 days old totaling $24,856 that had not
been transferred from the Seized Currency Suspense Account to the Treasury Forfeiture Fund as of the
end of FY 2012.




54             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
                                   TREASURY FORFEITURE FUND
                           Analysis of Revenue and Expenses and Distributions
                                For the Year Ended September 30, 2012
                                         (Dollars in Thousands)

 Revenue, Expenses and Distributions by Asset Category:
                                                                                              Expenses and
                                                                             Revenue          Distributions

 Vehicles                                                                   $ 12,498              $ 59,806
 Vessels                                                                       3,472                76,199
 Aircraft                                                                      3,472                24,549
 General Property                                                             11,109               241,861
 Real Property                                                                38,883                 9,473
 Currency and monetary instruments                                           456,217               113,763
                                                                             525,651               525,651
 Less:
   Mortgages and claims                                                        (2,777)              (2,777)
   Refunds                                                                     (6,245)              (6,245)
 Add:
   Excess of net revenues and financing sources over total program                  --                   --
       expenses
 Total                                                                      $ 516,629            $ 516,629

 Revenue, Transfers, Expenses and Distributions by Type of
 Disposition:
 Sales of property and forfeited currency and monetary instruments          $ 358,731             $ 99,875
 Reimbursed storage costs                                                       2,457               52,565
 Assets shared with state and local agencies                                  107,366              107,366
 Assets shared with other federal agencies                                      7,020                7,020
 Assets shared with foreign countries                                           3,488                3,488
 Victim Restitution                                                            46,589               46,589
 Destructions                                                                       --              63,078
 Pending disposition                                                                --             145,670
                                                                              525,651              525,651
 Less:
   Mortgages and claims                                                        (2,777)              (2,777)
   Refunds                                                                     (6,245)              (6,245)
 Add:
   Excess of net revenues and financing sources over total program                  --                   --
       expenses
 Total                                                                      $ 516,629            $ 516,629

The revenue amount of $516,629 is from the Statement of Changes in Net Position. This supplemental
schedule “Analysis of Revenues, Expenses and Distributions” is required under the Treasury Forfeiture Fund
Act of 1992.




                      SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                   55
                                 TREASURY FORFEITURE FUND
                                        Schedule of Spending
                               For the Year Ended September 30, 2012
                                       (Dollars in Thousands)


     What Money is Available to Spend?

            Total resources                                            $ 672,330
            Less amount not agreed to be spent                          (144,913)
     Total Amounts Agreed to be Spent                                  $ 527,417

     How was the Money Spent?

            Other contractual services                                 $ 266,557
            Supplies and materials                                            17
            Grants, subsidies and contributions                          163,720
            Interest and dividends                                           309
            Refunds                                                       55,289
            Total Spending                                               485,892

            Unpaid obligations, end of year (gross)                      550,841
            Less unpaid obligations, brought forward, October 1
            (gross)                                                    (539,063)
            Recoveries of prior year unpaid obligations                   29,747
            Total Spending Amounts Remaining to be Spent                  41,525

     Total Amounts Agreed to be Spent                                  $ 527,417

     Who did the Money go to?

          Federal                                                      $ 235,581
          Non-Federal                                                    291,836

     Total Amounts Agreed to be Spent                                  $ 527,417

     How was the Money Given?


            Contracts                                                  $ 287,227
            Equitable sharing and joint operations with
            state/local/foreign governments                              152,131
            Interest                                                         325
            Other                                                         87,734
     Total Amounts Agreed to be Spent                                  $ 527,417




56           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
                                  TREASURY FORFEITURE FUND
                               Information Required by 31 U.S.C. 9703(f)
                                For the Year Ended September 30, 2012
                                        (Dollars in Thousands)

The Treasury Forfeiture Fund Act of 1992, 31 U.S.C. 9703(f), requires the Secretary of the Treasury to
transmit to Congress, no later than February 1, of each year, certain information. The following
summarizes the required information.

(1)   A report on:

      (A) The estimated total value of property forfeited with respect to which funds were not deposited in the
          Department of the Treasury Forfeiture Fund during the preceding fiscal year under any law
          enforced or administered by the Department of the Treasury law enforcement organizations of the
          United States Coast Guard, in the case of fiscal years beginning after 1993.

          As reported in the audited financial statements, at September 30, 2012, the Fund had forfeited
          property held for sale of $86,191. The realized proceeds will be deposited in the Fund when
          the property is sold.

          Upon seizure, currency and other monetary instruments not needed for evidence in judicial
          proceedings are deposited in a Customs and Border Protection (CBP) suspense account.
          Upon forfeiture, it is transferred to the Treasury Forfeiture Fund. At September 30, 2012,
          there was $18,646 of forfeited currency and other monetary instruments that had not yet been
          transferred to the Fund. This is reported as a part of “Cash and Other Monetary Assets” in
          the audited financial statements.

      (B) The estimated total value of all such property transferred to any state or local law enforcement
          agency.

          The estimated total value of all such property transferred to any state or local law
          enforcement bureau is summarized by state and U.S. territories. Total currency transferred
          was $135,137 and total property transferred was $2,490 at appraised value.

(2)   A report on:

      (A) The balance of the Fund at the beginning of the preceding fiscal year.

          The total net position of the Treasury Forfeiture Fund on September 30, 2011 which became
          the beginning balance for the Fund on October 1, 2011, as reported in the audited financial
          statements is $1,452,922.




                     SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                  57
                                 TREASURY FORFEITURE FUND
                              Information Required by 31 U.S.C. 9703(f)
                               For the Year Ended September 30, 2012
                                       (Dollars in Thousands)

     (B) Liens and mortgages paid and the amount of money shared with federal, state, local and foreign law
         enforcement bureaus during the preceding fiscal year.

         Mortgages and claims expense, as reported in the audited financial statements, was $2,777.
         The amount actually paid on a cash basis was not materially different.

         The amount of forfeited currency and property shared with federal, and distributed to state,
         local and foreign law enforcement bureaus as reported in the audited financial statements was
         as follows:

                                                                    Amount
                           State and local                         $107,365
                           Foreign countries                          3,488
                           Other federal agencies                     7,020
                           Victim restitution                        46,589

     (C) The net amount realized from the operations of the Fund during the preceding fiscal year, the
         amount of seized cash being held as evidence, and the amount of money that has been carried over
         into the current fiscal year.

         The net cost of operations of the Fund as shown in the audited financial statements is
         $161,013.

         The amount of seized currency not on deposit in the Fund’s suspense account at September
         30, 2012, was $186,491. This amount includes some funds in the process of being deposited at
         year-end; cash seized in August or September 2012 that is pending determination of its
         evidentiary value from the U.S. Attorney; and the currency seized for forfeiture being held as
         evidence.

         On a budgetary basis, unobligated balances as originally reported on the Office of
         Management and Budget Reports, SF-133, “Report on Budget Execution” was approximately
         $144,913 for fiscal year 2012. This excludes $950,000 in FY 2012 rescinded authority that is
         classified as “temporary.” If this figure is added to the unobligated balances at the end of FY
         2012, the figure becomes $1,094,913.




58            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2012
                             TREASURY FORFEITURE FUND
                          Information Required by 31 U.S.C. 9703(f)
                           For the Year Ended September 30, 2012
                                   (Dollars in Thousands)

(D) Any defendant’s property not forfeited at the end of the preceding fiscal year, if the equity in such
    property is valued at $1 million or more.

    The total approximate value of such property for the Treasury Forfeiture Fund, at estimated
    values determined by bureau and contractor’s officials, and the number of seizures is as
    follows:

            Bureau                          Amount                       Number
            CBP                             $213,615                  39 seizures
            IRS                              743,448                 116 seizures
            U.S. Secret Service              282,375                  31 seizures

(E) The total dollar value of uncontested seizures of monetary instruments having a value of over $100
    thousand which, or the proceeds of which, have not been deposited into the Fund within 120 days
    after the seizure, as of the end of the preceding fiscal year.

    The total dollar value of such seizures is $24,856. This is also documented on page 54.

(F) The balance of the Fund at the end of the current fiscal year.

    The total net position of the Fund at September 30, 2012, as reported in the audited financial
    statements is $1,555,895.

(G) The net amount, if any, of the excess unobligated amounts remaining in the Fund at the end of the
    preceding fiscal year and available to the Secretary for Federal law enforcement related purposes.

    There is no cap on amounts that can be carried forward into Fiscal Year 2012 per the fiscal
    year 1997 Omnibus Appropriations Act (PL 104-208).

(H) A complete set of audited financial statements prepared in a manner consistent with the
    requirements of the Chief Financial Officers Act of 1990.

    The audited financial statements, including the Independent Auditor’s Report, are found in
    Sections II and III.

(I) An analysis of income and expense showing revenue received or lost: (i) by property category
    (such as general property, vehicles, vessels, aircraft, cash, and real property); and (ii) by type of
    disposition (such as sale, remission, cancellation, placement into official use, sharing with state and
    local agencies, and destruction).

    A separate schedule is presented on page 55


               SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                    59
THIS PAGE INTENTIONALLY LEFT BLANK
